February 20, 2002
Audit Report No. 02-004


Follow-up Audit of the FDIC’s Use
of Special Examination Authority and
DOS’s Efforts to Monitor Large Bank
Insurance Risks
                         TABLE OF CONTENTS

RESULTS OF AUDIT                                                          2

BACKGROUND                                                                3

    Legislative and Regulatory History                                    3

    Extent of Special Examination Activities                              4

    Changes in the Banking Industry Environment                           4

    Consequences of Additional Failures                                   5

SPECIAL EXAMINATION ACTIVITIES                                            6

    Recommendations                                                      13

LARGE BANK MONITORING PROGRAM                                            13

    Information Provided by the Other Primary Federal
    Regulators Focuses on Past Performance                               15

    Presence in Meetings Would Allow the FDIC to
    More Adequately Assess Insurance Risk                                16

    Recommendation                                                       19

CORPORATION COMMENTS AND OIG EVALUATION                                  19

APPENDIXES

    Appendix I:     Scope and Methodology                                21
    Appendix II:    Banks Supervised by the Primary Federal Regulators   22
    Appendix III:   Insurance Fund Loss Rates                            24
    Appendix IV:    Legislative and Regulatory History                   25
    Appendix V:     Corporation Comments                                 27

TABLES

    Table 1: Primary Federal Regulators and the Institutions
             They Supervise                                               4
    Table 2: Number of Instances Where FDIC Participated in
             Examinations of Small and Medium Sized Institutions as
             Reported to the FDIC Board of Directors for 10/1/99
             through 2/28/01                                          8

    Table 3: National Megabanks Regulated by the OCC as of 3/31/01    22

    Table 4: State Member Megabanks Regulated by the FRB as of
             3/31/01                                                  22

    Table 5: Thrift Megabanks Regulated by the OTS as of 3/31/01      23

    Table 6: State Non-Member Megabanks Regulated by the
             FDIC as of 3/31/01                                       23

    Table 7: Comparison of Megabanks According to Primary
             Federal Regulator as of 3/31/01                          23

    Table 8: Estimated Loss Rates for All Failed Insured Depository
             Institutions for the Past 5, 10, and 15 Years            24

    Table 9: Dollar Size of Insured Depository Institution(s) that
             Would Cause the BIF to Fall Below the Minimum 1.25%      24

    Table 10: Dollar Size of Insured Depository Institution(s) that
              Would Cause the SAIF to Fall Below the Minimum 1.25%    24

FIGURES

    Figure 1: Distribution of Consolidated Assets Between
              National, State Member, State Non-Member
              Banks and Thrifts as of 3/31/01                         15
Federal Deposit Insurance Corporation                                                            Office of Audits
Washington, D.C. 20434                                                                Office of Inspector General

DATE:            February 20, 2002

TO:              Michael J. Zamorski
                 Director, Division of Supervision



FROM:            Russell A. Rau
                 Assistant Inspector General for Audits


SUBJECT:         Follow-up Audit of the FDIC’s Use of Special Examination Authority and DOS’s
                 Efforts to Monitor Large Bank Insurance Risks (Audit Report No. 02-004)


This report presents the results of our follow-up audit of a 1999 Office of Inspector General (OIG)
study of the Division of Supervision’s (DOS) efforts to monitor and assess risk at insured institutions
for which the Federal Deposit Insurance Corporation (FDIC or the Corporation) is not the primary
federal regulator (PFR). 1 In a memorandum to the FDIC Chairman in October 1999,2 we reported
that other federal regulators had occasionally restricted the FDIC’s efforts to participate in safety and
soundness examinations at institutions for which the Corporation is not the PFR. Such restrictions
had limited the FDIC’s ability to assess risks to the deposit insurance funds. We also reported that
because of limitations in the information routinely provided to DOS by the other regulators
pertaining to the nation’s largest banks, DOS managers expressed serious concerns that they may not
be able to adequately assess the risks that the country’s largest non-FDIC supervised banks pose to
the insurance funds.

The objective of this follow-up review was to assess the progress that the FDIC has made since the
issuance of our previous memorandum and to make recommendations that might improve the
Corporation’s effectiveness in working with the other federal regulators. We conducted our audit
from March through November 2001 in accordance with generally accepted government auditing
standards. As the Office of Inspector General for the FDIC, we reviewed the issues addressed in this
report solely based on information provided by the FDIC in its efforts to effectively carry out its
mission. We did not perform audit fieldwork at the Board of Governors of the Federal Reserve
System (FRB), the Office of the Comptroller of the Currency (OCC), or the Office of Thrift
Supervision (OTS). A detailed discussion of the scope and methodology of our audit is included in
Appendix I.


1
  A bank’s primary federal regulator is determined by the bank’s charter and whether a bank is a member of the
Federal Reserve System. The FDIC is the primary federal regulator for state-chartered banks that are not members
of the Federal Reserve System. The Office of the Comptroller of the Currency (OCC) is the primary federal
regulator for all national banks. The Board of Governors of the Federal Reserve System (FRB) is the primary
federal regulator for state chartered banks that are members of the Federal Reserve System. The Office of Thrift
Supervision (OTS) is the primary federal regulator for federal and state-chartered savings associations.
2
  Audit Memorandum to the Chairman – Results of OIG Review of the Backup Examination Process and DOS’s
Efforts to Monitor Megabank Insurance Risks, October 19, 1999.
RESULTS OF AUDIT

In both our reviews, we noted that DOS managers have generally developed good working
relationships with their regional counterparts in FRB, OCC, and OTS. In our first review,
covering the 42-month period ending in March 1999, we identified 90 instances where DOS had
participated in examinations with the other federal regulators. However, the FDIC has not
always been able to promptly secure permission to participate in examinations of banks
supervised by the OCC and OTS. Specifically, we learned of three situations that occurred
during 1998 where these regulators turned down initial DOS requests to participate in scheduled
safety and soundness examinations, and the end result in two of these cases dramatically
illustrates the importance of regulators working together to effectively deal with evolving risks in
the banking industry. One case involved an OCC supervised bank, the First National Bank of
Keystone, Keystone, West Virginia, and the other case, Superior Bank, FSB, Hinsdale, Illinois,
an institution supervised by OTS. Both banks were ultimately closed by the regulators
(Keystone in September 1999 and Superior in July 2001) and both have captured congressional
and national attention because of the significant loss estimates associated with these institutions.
As of December 31, 2001, the combined estimated loss for the two banks was $1.13 billion -
losses that will ultimately be borne by the federal deposit insurance funds. The OCC’s and
OTS’s initial reluctance to allow DOS examiners to evaluate a number of concerns related to the
activities of these banks may have prolonged their periods of operation and increased deposit
insurance fund losses.

Our follow-up review did not identify any additional instances where another regulator turned
down an FDIC request to participate in an examination. However, DOS officials informed us of
several cases where examiners experienced delays in receiving requested information from
another regulator or were not provided sufficient time during examinations to review certain
bank conditions.

In our 1999 memorandum, we suggested that the Chairman (1) request delegated authority from
the FDIC Board to initiate special examinations without having to secure the concurrence of the
primary federal regulator or the approval of the Board or (2) seek a legislative change to vest this
authority in the Chairman. Following Keystone’s failure and the issuance of our memorandum,
Representative James Leach, the former Chairman of the House Committee on Banking and
Financial Services, introduced legislation on November 16, 1999 (H.R. 3374) designed to
strengthen the FDIC’s ability to monitor and assess risk in those financial institutions for which
the FDIC is not the primary federal regulator. Following a hearing on H.R. 3374 in February
2000, no action was taken on the legislation based on the strength of the Comptroller of the
Currency’s representations during the hearing that there should be no problems with the FDIC’s
access to OCC regulated banks and that any disputes with the FDIC would be resolved at his
level. The bill expired at the end of the 106th Congress. Subsequently, the FDIC Chairman did
not request a delegation of authority from the Board. Based on the results of our follow-up
review, we believe the circumstances supporting our previous suggestion have not substantially
changed, and that changes in the industry and the consequences of additional failures have



                                                 2
increased risk to the deposit insurance funds. Accordingly, we are now formally recommending
that the FDIC’s special examination authority be strengthened.

In our previous review, we also pointed out a number of factors that significantly limit the
FDIC’s ability to effectively monitor the financial risks posed in the country’s largest banks,
those with over $25 billion in assets (sometimes referred to as “megabanks”). At that time, 37 of
the 39 largest institutions were supervised by OCC, FRB, and OTS. We reported that DOS
officials had to evaluate risk exposures in megabanks by using information that is mostly
historical in perspective and filtered or interpreted by the other regulators before it is made
available to the FDIC. These same conditions continue to exist, with 35 of 38 megabanks
supervised by the OCC, FRB, or OTS. Additionally, we observed in our previous report that
DOS was prevented from gaining valuable insights into the operations and risks of the nation’s
largest national banks because the OCC would not allow DOS personnel to attend meetings
between OCC examiners and bank management. Over the past 2 years this situation has not
changed. DOS personnel are attending bank management meetings with FRB and OTS, but not
with OCC.

We are, therefore, reaffirming the position we expressed in our prior review by recommending
that the Director of the FDIC’s DOS develop agreements with the other bank regulatory agencies
to provide the FDIC with the real-time information and access to megabanks necessary to carry
out the Corporation’s responsibilities as the insurer. Consistent with this recommendation, the
FDIC worked with the OCC, FRB, and the OTS during the latter part of 2001 to develop an
interagency agreement to improve the Corporation’s access to banks for purposes of performing
special examinations and to provide DOS with more timely data on large banks. On January 29,
2001, the FDIC Board authorized implementation of the agreement that includes a provision for
the FDIC to assign a dedicated examiner to each of the eight largest banking organizations.

In our 1999 memorandum, we also suggested that the Chairman direct DOS to: identify the
specific information that DOS needs to monitor the insurance risk presented by megabanks and
other insured institutions; establish well defined criteria for case managers to use in evaluating
the insurance risks posed by non-FDIC supervised megabanks; and clearly articulate DOS’s
monitoring goals and objectives. DOS initiatives undertaken since the completion of our
previous fieldwork, such as instituting changes to improve the efficiency of its large bank
supervision program and providing specific instructions to case managers in response to our
memorandum, have met the intent of our suggestions. Accordingly, we are not making any
recommendations that specifically pertain to these matters.


BACKGROUND

Legislative and Regulatory History

The FDIC’s special insurance examination authority is contained in subsection 10(b)(3) of the
Federal Deposit Insurance Act (FDI Act). This subsection provides FDIC examiners the power
to make special examinations of any insured depository institution, whenever the FDIC Board of
Directors determines such an examination is necessary, to determine the institution’s condition
for insurance purposes. During 1995, the Board delegated authority to the Director of DOS to

                                                 3
perform examinations, visitations, and/or other examination activities with the concurrence of
the PFR. However, under the current delegation, DOS examiners do not have the authority to
perform an independent on-site evaluation of a bank's activities, even if the bank is in a troubled
condition, without the approval of the bank’s PFR or the FDIC Board of Directors. The five-
member Board is composed of the FDIC Chairman and Vice Chairman, the FDIC Director, the
Comptroller of the Currency, and the Director of the Office of Thrift Supervision. The FDIC
Vice Chairman position was vacant as of the date of this report. A more detailed history of the
Corporation’s special examination authority is presented in Appendix IV.

Extent of Special Examination Activities

As required by current law, the FDIC maintains and protects separate insurance funds for banks
and savings associations and shares supervisory and regulatory responsibility for FDIC-insured
institutions with FRB, OCC, OTS, and state authorities. As shown in Table 1, the FDIC is the
PFR for approximately 5,600 federally insured state-chartered commercial banks that are not
members of the Federal Reserve System.


Table 1: Primary Federal Regulators and the Institutions They Supervise

 Primary Federal                Type of Bank         Number of             Total Assets
    Regulator                     Charter            Institutions         ($ in millions)

FDIC                         State Non-Member                   5,616            $1,468,152

OCC                               National                      2,231             3,414,579
FRB                            State Member                       991             1,644,645
OTS                            Thrifts/Savings                  1,067               933,972
OCC-FRB-OTS                       Subtotal                      4,289            $5,993,196
Source: Fourth Quarter 2000 Banking Profile


In carrying out its responsibilities as the insurer, the FDIC also monitors the conditions of about
3,200 national and state member banks, and more than 1,000 thrift institutions. For the 17-
month period ending February 28, 2001, we noted that DOS participated in the examination of
71 banks and thrifts regulated by the OCC, OTS, and FRB, or approximately 1.7 percent of the
institutions that the FDIC monitored for insurance purposes over that time period.

Changes in the Banking Industry Environment

In our 1999 memorandum, we pointed out that since the early 1990s, the major banks have been
rapidly developing into enormous and complex financial conglomerates. The continuing
consolidation of the industry has resulted in fewer and fewer financial institutions controlling an
ever-expanding percentage of the nation’s financial assets. The largest banks operate highly
complex branch networks, have extensive international and capital market operations, and work
on the cutting edge of technologically sophisticated finance and business. There are about 8,800
banks nationwide – down from more than 12,000 in 1990. In a relatively short period of time,

                                                 4
the industry has undergone such a widespread consolidation that relatively few institutions now
control almost half of the total bank assets of all FDIC insured depository institutions, about $3.6
trillion.

This trend toward the consolidation of financial resources is placing increasing risks on the
deposit insurance funds. As of March 31, 2001, there were 38 megabanks in the country. The
consolidation of banks serving different markets can moderate risk, decrease earnings volatility,
and moderate the effect of economic downturns on the largest institutions, thereby decreasing the
likelihood of failure. However, consolidation in the banking industry presents additional risks
for the FDIC in its unique role as the deposit insurer because the deposit insurance funds3 face
larger potential losses from the failure of a single large institution.

In addition to controlling a high percentage of banking resources, today’s megabanks are
frequently involved in non-traditional and highly complex business activities. The financial
conditions faced by the largest banks can change direction with very little warning. In addition,
the enactment of the Gramm-Leach-Bliley Act of 1999, 4 which permits affiliations between
insured banks, financial holding companies, and various subsidiary relationships including
securities and insurance firms, may pose new challenges not only to the banking industry but
also to each of the cognizant regulators. For these reasons, the need for coordination,
cooperation, and sharing of timely and accurate information among the regulators is essential.

Consequences of Additional Failures

Closing additional institutions with insurance fund losses on the magnitude of the Keystone and
Superior failures could have a significant effect on the banking industry. FDI Act section 7(b),
Assessments, requires the FDIC Board of Directors to set semiannual assessments for insured
depository institutions if the required reserve ratio of the insurance fund balance to estimated
insured deposits falls below 1.25 percent. In a speech before America’s Community Bankers on
October 30, 2000, the former FDIC Chairman stated that if fund payouts push the fund below the
1.25 percent threshold, banks would face a 23 basis point premium spike that could reduce the
pre-tax net income of all FDIC-insured institutions by almost $9 billion, which, in turn, could
lead to a nation-wide lending contraction of more than $65 billion. This would create
considerable stress on an already struggling economy.

Based on the estimated amount of insured deposits and the balances of the insurance funds as of
September 30, 2001, losses of approximately $1.8 billion to the Bank Insurance Fund (BIF) and
approximately $1.1 billion to the Savings Association Insurance Fund (SAIF) would require




3
  The FDIC operates two insurance funds: the Bank Insurance Fund (BIF) insures deposits in commercial banks and
savings banks, and the Savings Association Insurance Fund (SAIF) insures deposits in federal savings and loan
associations, federal savings banks, and state savings and loans.
4
  Signed into law by President Clinton on November 12, 1999, the Gramm-Leach-Bliley Act provides financial
organizations with flexibility in structuring new financial affiliations through a holding company structure or a
financial subsidiary, with appropriate safeguards.

                                                       5
institutions insured by the respective fund to begin paying deposit insurance premiums. 5 Thus,
there is a compelling need for all the regulators to cooperate fully in order to minimize the losses
associated with any bank failure that does occur and ensure the industry’s stability. Appendix
III contains a discussion of loss rates and the amount of losses required before institutions would
have to pay insurance premiums.


SPECIAL EXAMINATION ACTIVITIES

In responding to emerging safety and soundness concerns in financial institutions for which the
FDIC is not the PFR, FDIC examiners have at times been denied permission to evaluate
conditions on-site or to gain timely access to information relevant to situations that represented
significant risks to the insurance funds. In our opinion, there has been a reluctance on the part of
other PFRs to allow the FDIC to participate in examinations because the agencies wanted to
avoid over-burdening institutions and, as is the natural tendency, preclude possible second-
guessing by the FDIC. Also, given the time and effort required to prepare a Board case, DOS
officials have been hesitant to petition the Board in situations where their suspicions were not
backed up by substantial proof. Further, during the past several years, it is our perception that
DOS believed it was unlikely that such cases would be approved because Board of Directors’
vacancies left the FDIC in a minority position. The frequency of the FDIC’s participation in
examinations conducted by the PFRs has more than doubled since the time period covered
during our 1999 review, and we found no additional instances where DOS was not allowed to
participate in an examination. However, the FDIC continued to encounter instances where its
efforts to address risks from the perspective of the insurer had been constrained by other PFRs.

While section 10(b)(3) of the FDI Act provides the FDIC special authority to examine any
insured depository institution for insurance purposes, current procedures contained in the FDIC
Board’s 1995 delegation to the DOS Director can prevent the FDIC from using its authority.
Under the delegation, the FDIC cannot conduct a special examination of a financial institution,
no matter how serious its financial condition, over the objection of the PFR unless DOS can
successfully present a case before the FDIC Board to justify DOS’s involvement. Thus, under
certain circumstances, the FDIC lacks the independence to promptly and directly respond to
emerging risks within a particular institution from the perspective of the insurer.

When evaluating the effectiveness of the current delegation, it is important to recognize that the
FDIC’s responsibilities are broader than those of the other PFRs. In addition to supervising state
nonmember banks in the role of a primary regulator, the Corporation is also responsible for
managing the insurance funds, ensuring that failing institutions are resolved in the least costly
manner, and maximizing the value of failing banks’ receivership assets. 6 Each of these
responsibilities involves the need for the FDIC to have prompt and direct access to information
that may be directly controlled by one of the other PFRs. With respect to its supervision
responsibilities, DOS requires direct and timely access to information, and at times bank
5
  Because the reserve ratio of premiums held by the FDIC to deposits insured exceeds the 1.25 percent ratio
established by FDIC regulation, most banks and thrifts were not paying insurance premiums as of the date of this
report.
6
  A receiver is an agent (in the instance of a failed institution, the FDIC) appointed by a failed institution’s primary
regulator to manage the orderly liquidation of the failed institution.

                                                            6
management, for two primary reasons : first, to assess insurance risk to ensure that the FDIC, as
underwriter for the insurance funds, is being properly compensated for the risk presented by all
insured institutions, including those not directly supervised by DOS; and second, to ensure that
insured institutions are supervised and regulated prudently.

Additionally, under the current delegation, situations could occur where the heads of the OCC
and OTS, both of whom are members of the FDIC Board, would be voting on requests for
special examination authority after actions had been taken by their respective organizations to
oppose DOS requests to use that authority. Further, in situations where one or more of the
Board’s positions are vacant, the vital balance between the regulators’ various interests implicit
in the Board’s structure is not preserved and the FDIC’s independence to exercise special
examination authority is impaired. As of the date of this report, the Board has operated with one
vacancy, the Vice Chairman position, since January 2001, and during the 1990s one or more
Presidentially-appointed Board positions frequently were vacant. Accordingly, our office has
strongly urged that vacancies be filled as promptly as practicable in order to afford the FDIC the
balanced governance and sustained leadership essential to the agency’s continued success.

As the insuring agency, the FDIC strives to keep abreast of developments that occur in all
institutions to determine their potential risks to the deposit insurance funds and to assign
institutions to categories within the risk-related premium system. When increases in risk raise
concerns with the FDIC, the Corporation may ask to participate in the primary federal regulator’s
next examination. Under FDI Act section 10(b)(3), the FDIC’s Board of Directors can authorize
FDIC examiners to conduct a special examination of any insured depository institution for
insurance purposes. While the FDIC’s usual practice is to review and rely on the examination
reports of the other regulators, this special examination provision of the Act serves as an internal
control by which the FDIC, as insurer, can provide a secondary level of on-site review for
institutions perceived to pose a higher risk profile. However, the effectiveness of this internal
control can be reduced by the current delegation from the FDIC’s Board because DOS must first
obtain the concurrence of the primary federal regulator or go through the process of preparing a
Board case and seeking Board approval.

The FDIC’s lack of independence to determine when and where DOS can obtain information
related to safety and soundness and insurance concerns is inconsistent with the Corporation’s
authority when ruling on rating differences with the other PFRs. In accordance with section 327
of the FDIC’s Rules and Regulations, the FDIC has the final word when assigning ratings for
insurance purposes, which impact the insurance premium assessments banks are assigned. The
FDIC uses a risk-based premium system that assesses higher rates on those institutions that pose
greater risks to the insurance funds. In order to assess premiums on individual institutions, the
FDIC places each institution in a risk category using a two-step process based first on capital
ratios (the capital group assignment) and then on other relevant information (the supervisory
subgroup assignment). The FDIC makes capital group assignments in accordance with section
327.4(a)(1) of the FDIC’s Rules and Regulations. The FDIC also makes supervisory subgroup
assignments based on the Corporation’s consideration of supervisory evaluations provided by the
institution’s PFR, in accordance with section 327.4(a)(2) of the FDIC’s Rules and Regulations.
Thus, while the FDIC has full authority to assign risk ratings for insurance purposes, it does not
have the equivalent autonomy to obtain the information needed to assign the ratings.

                                                 7
In our current review, we again assessed the cooperation the Corporation has received from
OCC, FRB, and OTS in carrying out its responsibilities to protect the insurance funds. For the
period October 1, 1999 through February 28, 2001, DOS requested and was allowed to
participate in 89 examinations with the other regulators in 71 small and medium sized banks and
thrifts – those with assets less than $25 billion. Table 2 summarizes the location and the number
of instances where DOS participated in examinations during the 17-month period reviewed.


Table 2: Number of Instances Where FDIC Participated in Examinations of Small and
Medium Sized Institutions as Reported to the FDIC Board of Directors for 10/1/99 through
2/28/01

                                   Primary Federal Regulator

DOS Region                    OCC                     OTS                       FRB   Total

Atlanta                          7                      4                        2     13
Boston                           1                      0                        0      1
Chicago                         12                      7                        3     22
Dallas                           5                      3                        5     13
Kansas City                      9                      3                        4     16
Memphis                          8                      0                        2     10
New York                         1                      3                        0      4
San Francisco                    6                      3                        1     10

              Total             49                     23                       17     89
Source: OIG Analysis of Examination Activities for Deposit Insurance Purposes



When dealing with issues related to small and medium sized banks, DOS managers believe that at
the regional level, they have developed effective working relationships with their regulatory
counterparts at the FRB, OCC, and OTS. However, DOS managers brought to our attention a
number of situations where they believe that their examiners were not provided with the
information or time to fully assess the risks present in banks supervised by OCC and OTS. We
did not hold discussions with officials from OCC, OTS, or FRB regarding these situations, which
are discussed below.

•   During an OCC examination of a national bank in July 2000, OCC examiners became aware
    of loan portfolio irregularities. Although an OCC investigation revealed serious asset
    quality problems resulting from hazardous lending practices and alleged fraud and insider
    abuse, OCC did not notify DOS. DOS learned of the situation only when a DOS official
    contacted OCC while following up on an inquiry made by a third party. Despite OCC
    assurances that DOS would be kept advised of significant findings of the ongoing
    investigation and examination, DOS was not made aware of the extent of the bank’s losses or


                                                             8
    the CAMELS composite 5 rating 7 until DOS received the examination report in January
    2001. The bank’s previous CAMELS composite rating (1999) had been a 2. We were also
    advised that DOS experienced difficulties and delays in obtaining information from OCC
    officials that was needed to calculate an accurate capital ratio. A DOS examiner
    participating in a subsequent on-site visit to the bank was able to obtain the necessary
    information. However, for a period of time, the FDIC lacked timely and necessary
    information to assess and prepare for potential losses to the insurance funds.

•   During December 1999, the FDIC entered into a project with the FRB, the OCC, and state
    banking departments. The project involved a joint effort to examine several financial
    institutions with different charters. Relationships with the various FRB and state banking
    department personnel were considered excellent. Information was readily shared and views
    from each agency were welcomed. However, DOS experienced difficulties with the OCC,
    especially during the early stages of the project. DOS informed us that the OCC denied
    FDIC and FRB examiners the right to copy bank documents to retain for later use and did not
    provide them to the two agencies until from several weeks up to several months later.

    In one of the national banks examined during the project, the OCC would only allow FDIC
    personnel to input data onto a spreadsheet. No additional examination tasks were assigned to
    the DOS staff, and the OCC examiners did not accept DOS comments, conclusions, and
    suggestions. During the offsite review of this institution, DOS examiners noted what they
    considered to be instances of improper insider transactions. They requested copies of
    minutes from Board of Directors’ meetings and that the bank’s directors be questioned about
    their activities during a planned return visit to the bank. The OCC cancelled the return trip
    over the objections of DOS, and the OCC did not provide DOS with copies of the Board
    meeting minutes for several months. As of July 2001, the OCC’s planned investigation of
    the insider transactions had not begun. The OCC also requested and received documents
    from the various national banks involved in this project that it did not share with either the
    FDIC or FRB.

•   During April 2001, DOS participated in a full-scope safety and soundness examination of a
    thrift supervised by OTS. Near the end of the examination, the OTS and DOS realized that
    several significant issues could not be resolved within the time that the OTS had allotted for




7
  The CAMELS rating for an institution is part of the Uniform Financial Institutions Rating System which is used to
evaluate the soundness of institutions on a uniform basis and to identify institutions requiring special attention. This
rating system assigns a numerical score from 1 to 5 for each institution, with 1 signifying the highest rating and least
degree of supervisory risk and 5 signifying the lowest rating and the highest degree of supervisory risk. The
CAMELS acronym represents each of the factors that are rated: Capital, Asset Quality, Management, Earnings,
Liquidity, and Sensitivity to Market Risk.

                                                           9
    the exam. One of the issues was support for the thrift’s valuation and modeling of subprime
    residual assets 8 and subordinated debt. 9 The OTS examiner in charge asked his regional
    office for additional time to complete the examination but was turned down. Thus, DOS was
    not provided sufficient time to discuss the findings with OTS and resolve differences prior to
    the exit meeting with bank management. At the end of the examination, DOS did not agree
    with certain OTS conclusions and ratings. During August 2001, the OTS advised DOS that
    OTS concurred with the FDIC’s rating position and was lowering the bank’s rating to a
    composite 3.

•   During DOS’s participation in a July 2000 examination of a bank supervised by the OTS,
    DOS and OTS examiners had differences in opinion on several issues including accounting
    treatments and the bank’s rating. OTS held its exit meeting with bank management before
    DOS’s concerns could be resolved, and the DOS examiners were not free to discuss their
    position during the meeting. Ultimately, the OTS agreed with DOS that the institution’s
    composite rating should be lowered from a 3 to a 4.

While none of the banks described in the above examples have caused losses to the deposit
insurance funds, these situations demonstrate how another regulator can restrict access to
information the FDIC believes necessary to fully assess its insurance risks.

In performing our 1999 review, however, we noted three instances where another regulator
denied the FDIC’s initial requests to participate in safety and soundness examinations, and in
two of these situations, the banks were subsequently closed. One case involved The First
National Bank of Keystone, Keystone, West Virginia. On September 1, 1999, the OCC closed
Keystone, a $1.1 billion institution, after finding evidence of apparent fraud that resulted in the
depletion of the bank’s capital. In February 1998, the OCC received and denied DOS’s request
to participate in its August 1998 examination. As a result, DOS prepared a Board case seeking
approval to participate in the exam. In our opinion, DOS had a sound basis for wanting its
examiners to participate in the exam.

In June 1998, prior to DOS presenting its case to the Board, the OCC reversed its position. Thus,
the Board never heard the case. In reversing its position, however, the OCC restricted the
number of DOS examiners that were allowed to work in the bank. This situation illustrates how
the FDIC’s special examination authority can be subject to constraints imposed by the PFR and
can limit the FDIC’s ability to assess risks to the deposit insurance funds. As of the date of this
report, the loss to the Bank Insurance Fund associated with the closing of Keystone was
estimated to be $780 million.


8
  Residual assets represent claims on the cash flows resulting from the securitization process that remain after all
obligations to investors and any related expenses have been paid, which normally include funds to build reserves
and pay loan losses, servicing fees, and liquidation expenses. When the loans for the pools originate, they bear a
stated interest rate. The securities are issued to investors at a lower rate than the stated rate on the loans. The
difference between the rate that the loans are paying versus what the pools are paying to investors is called the
residual.
9
  A subordinated note or debenture is a form of debt issued by a bank or a consolidated subsidiary. When issued by
a bank, a subordinated note or debenture is not insured by a federal agency, is subordinated to the claims of
depositors, and has an original weighted average maturity of 5 years or more.

                                                         10
Another significant example involved an OTS-supervised institution, Superior Bank, FSB,
Hinsdale, Illinois. On December 28, 1998, the Director of DOS’s Chicago Regional Office sent a
letter to his OTS counterpart requesting that a DOS examiner be allowed to participate in OTS’s
next examination of Superior, scheduled to begin in January 1999. The letter cited a number of
concerns relative to the bank’s situation, including that Superior’s asset structure included
substantial investments in residual interest securities. According to DOS officials, OTS regional
management orally denied the request in January 1999.

We believe that the concerns detailed in DOS’s request presented sufficient justification for
obtaining permission to participate in the exam. As an alternative, the OTS allowed DOS’s case
manager and a regional capital markets specialist to meet offsite with OTS examiners about a week
prior to the close of the exam. However, DOS found that meeting with examiners rather than
participating directly in the examination resulted in a limited benefit. Over the succeeding months
as the bank’s situation deteriorated, DOS continued to encounter difficulties in obtaining the OTS’s
full cooperation.

On July 27, 2001, Superior Bank was deemed insolvent and the OTS appointed the FDIC as
receiver. The bank held assets of $2.3 billion, and the loss to the Savings Association Insurance
Fund is estimated to be $350 million. At the request of the Chairman of the Senate Committee
on Banking, Housing, and Urban Affairs, our office is reviewing the causes of Superior’s failure
and various aspects of the effectiveness with which the respective federal regulators supervised
the institution prior to its closing. The Office of the Inspector General of the Department of the
Treasury conducted a review of the circumstances leading to the thrift’s failure in accordance
with section 38(k) of the FDI Act. Final reports on these reviews were issued in February 2002,
and the Senate Committee held a hearing on this subject on February 7, 2002.

The limitations placed on DOS’s attempts to assess the problems related to Keystone and
Superior, and the more recent instances where DOS’s supervisory activities have been
constrained by the other regulators, illustrate that FDIC officials are not always provided with
the information and access to banks they believe are needed to assess risk for insurance purposes.
The restrictions imposed by the current delegation of authority from the FDIC Board to DOS can
hinder timely action on the part of DOS in several respects. First, in seeking concurrence from
the PFR, the PFR can significantly influence the timing and scope of the FDIC’s examination
activities, reducing or blocking the benefit of the secondary level of review. Requiring
concurrence by the primary federal regulator may impair the FDIC’s independence, may limit
the control value of the secondary level of review, and could be viewed as an organizational
conflict. Second, requiring Board approval on a case-by-case basis could delay an FDIC special
examination in a critical situation, delay the start of enforcement action based on examination
results, and detract from the internal control established in the FDI Act. As mentioned earlier,
the five-member Board includes the heads of the OCC and the OTS, thus providing these two
individuals with the opportunity to participate in any Board decision on whether the FDIC should
be allowed to carry out its special examination authority in an institution supervised by another
PFR. 10


10
  It should be noted that when special examination authority was first established in 1950, the FDIC Board consisted
of three members: the Chairman, an FDIC Director, and the Comptroller of the Currency.

                                                        11
Accordingly, to ensure the effectiveness of the internal control offered by the special
examination provision of the FDI Act and that the FDIC takes the most effective approach to
monitoring risks to the deposit insurance funds, the FDIC Chairman needs the independent
authority to authorize special examinations that supplement those of the other regulators. A
statutory amendment or delegation from the Board could allow the FDIC Chairman to make an
independent decision to initiate special examination activities based on criteria of increased or
unusual risk to the funds, and not require case-by-case concurrence by the primary federal
regulator or the Board’s approval. As discussed previously, the heads of the OCC and OTS can
impact FDIC independence in Board decisions during periods where one or more Board
positions are vacant.

In our 1999 memorandum, we suggested that the former Chairman seek a legislative change that
would vest special examination authority in the FDIC Chairman and thereby eliminate any
requirements to secure the concurrence of the primary federal regulator or the approval of the
Board. Alternatively, we suggested that the Chairman pursue a less complicated and more
timely approach to resolving the current situation by requesting the FDIC Board of Directors to
vest the Chairman with the authority to approve DOS requests for special examinations of
insured institutions that pose significant safety and soundness concerns. However, it is critical to
note that any delegation of authority granted by the Board to the Chairman could be rescinded or
modified at any time by a majority of the Board members in a subsequent vote. Thus, the
FDIC’s independence and the effectiveness of DOS’s secondary level of review could again be
restricted. We therefore consider that seeking to change the current legislation is the preferred
course of action for the Chairman to take and that revising the current Board delegation should
serve as an interim measure.

Given the broad range of the FDIC’s supervisory responsibilities, and because of the
Corporation’s role and responsibility as the deposit insurer for the nation’s banking industry,
there is a clearly defined need to strengthen the FDIC’s authority to act in an independent
manner in its efforts to evaluate insurance risk and gain access to financial records in banks
supervised by the other PFRs. Vesting special examination authority directly with the FDIC
Chairman would serve to strengthen the effectiveness of the Corporation’s secondary level of
review of safety and soundness concerns and lessen the potential impact that Board vacancies
create relative to the FDIC’s ability to quickly assess suspected insurance risk in an institution
supervised by another regulator. The proper use of the FDIC’s special examination authority
would not duplicate or disrupt the other PFR’s efforts, but would provide the FDIC with a more
timely approach for gaining a firsthand understanding, along with the PFR, of potential risks
facing both financial institutions and the insurance funds, or obtaining information critical to a
resolution.

In an August 19, 1993 letter to the FDIC’s Acting Chairman, the Chairman of the House
Committee on Banking, Finance and Urban Affairs, and the Ranking Member of the Committee,
stated that given the FDIC’s responsibilities for prompt corrective action, as outlined in section
38 of the FDI Act, and as the backup regulator, the FDIC must be able to independently examine
all depository institutions. They stated that “the FDIC has been granted specific responsibility
for promoting the safety and soundness of the bank and savings association insurance funds and
ensuring that insured institutions are supervised and regulated prudently. This responsibility

                                                 12
requires independent enforcement and examination authority and that is what Congress granted
to the FDIC in the FDI Act.” They also stated that they hoped that the FDIC would coordinate
its examinations with the primary regulator to the fullest extent possible.

The FDIC has a need and a responsibility to develop information on core risk areas to facilitate
analyses of insurance fund exposures and continually maintain an up-to-date understanding of
specific vulnerabilities that could lead to significant insurance losses. As discussed earlier in the
report, the failure of a single large institution, coupled with the losses sustained in recent failures,
could cause the reserve ratio of the insurance fund balance to estimated insured deposits to fall
below 1.25 percent. This, in turn, would require all depository institutions to begin paying
insurance premiums.

For the FDIC to most effectively carry out one of its principal responsibilities, the insurance
function, its Chairman needs to be provided with a greater degree of independence to exercise
the Corporation’s special examination authority. Based on the results of this follow-up review,
the circumstances supporting our previous suggestions to strengthen the FDIC’s special
examination authority remain essentially the same, and changes in the industry have increased
risks to the deposit insurance funds. Accordingly, we are making the following
recommendations.

Recommendations

We recommend that the Director, DOS, initiate actions within the Corporation to:

(1)     Pursue an amendment to Section 10(b)(3) of the FDI Act (12 U.S.C. section 1820(b)(3))
        to vest special examination authority with the FDIC Chairman in consultation with the
        appropriate primary federal regulator.

(2)     Seek a revised Board delegation that vests special examination authority with the FDIC
        Chairman in consultation with the appropriate primary federal regulator, as an interim
        measure pending a legislative amendment.


LARGE BANK MONITORING PROGRAM

Our follow-up review disclosed that DOS officials continue to evaluate risk exposures in
megabanks by using information that is predominantly historical in perspective and sometimes
filtered or interpreted by the other PFRs before it is made available to the FDIC. The FDIC does
not have access to current and complete information in order to assess insurance fund risks.
Because the FDIC does not have a presence in 35 of the country’s 38 largest banks (see
Appendix II), it is almost totally dependent on the other PFRs for monitoring the largest potential
risks to the deposit insurance funds. In the absence of agreements with the other PFRs that
would provide the FDIC with real-time information, and because DOS representatives have been
denied a presence by the OCC in meetings between the regulators and management in the
nation’s largest national banks, the FDIC may not be able to adequately assess the risk that non-
FDIC supervised megabanks present to the insurance funds.

                                                   13
A fundamental component of DOS’s decentralized approach to megabank monitoring is the
personal relationships that case managers develop with their counterparts in the other regulatory
agencies. Case managers (CMs) are located in DOS’s regional offices and are responsible for
evaluating the level of insurance risk evident in their caseloads of financial institutions, which
consist of banks supervised by the FDIC as well as the other regulators. Working with
representatives from the other regulatory agencies, CMs must fully understand the operations of
those institutions in their caseloads, develop supervisory strategies, and determine the deposit
insurance risk ratings for each institution. A May 28, 1999 best practices memorandum sent to
all DOS regional directors dealing with this subject states that a case manager’s ability to
develop strong and effective working relationships with primary regulator counterparts is
considered critical to properly evaluate institution and systemic risks and to ensure that the
FDIC’s supervisory and insurance concerns are effectively and expediently communicated to the
PFR.

To understand the significance of our observations relating to factors that are hindering the
FDIC’s effectiveness in monitoring and supervising the country’s largest banks, it is important to
relate our findings to our earlier discussion of the challenges facing the banking industry, and
particularly our discussion of the ongoing consolidation process. Of the $5.3 trillion
consolidated assets controlled by the 38 largest financial institutions, the FDIC is the primary
federal regulator for only $162.5 billion in 3 institutions (see Figure 1). The failure of a
megabank, along with the potential closing of closely affiliated smaller institutions, could result
in huge losses to the deposit insurance funds.




                                                14
                 Figure 1: Distribution of Consolidated Assets Between National, State
                 Member, State Non-Member Banks and Thrifts as of 3/31/01 11




                                                         3%
                                        8%




                   26%




                                                                                              63%




                                             OCC $3.342 Trillion (17 Banks)
                                             FRB $1.379 Trillion (12 Banks)
                                             OTS $433 Billion (6 Banks)
                                             FDIC $162.4 Billion (3 Banks)



                 Source: OIG Analysis from DOS Large Insured Depository Institution Report as of
                 3/31/01 and FDIC Institution List



Information Provided by the Other PFRs Focuses on Past Performance

One of the key conditions that has not changed significantly over the past 2 years is that the CMs
have continued to evaluate risk exposures in the megabanks by using information that is
historical in perspective, because much of the data received from the other PFRs and the banks is
several months old. A substantial amount of the information that case managers use is dated
because it has to be developed and processed through management channels at the other agencies
before it is made available to DOS. While this information is useful, it does not sufficiently
indicate for the CMs where the banks are planning to focus their future activities. In other
words, the CMs do not have an adequate understanding of a bank’s planned strategic initiatives,
which is a key element in assessing risks to the insurance funds and the sufficiency of the funds
to cover such risks. Having access to current and complete information is especially critical
today when trying to gauge risk in a financial institution because of the speed with which shifts
in investment focus can occur and electronic transactions can take place.

Case manager comments regarding their sources of information relative to large banks were
consistent with what we were told 2 years ago. There are still two primary sources of
information that the CMs use to monitor bank activities and the corresponding risks that they
11
  In July 2001, one of the banks supervised by the FDIC converted to a state member bank supervised by the FRB,
thus lowering the number of megabanks directly supervised by the FDIC from 3 to 2.

                                                          15
present. The first source is information that is available to the general public: quarterly and
annual bank financial statements filed with the Securities and Exchange Commission, press
releases, newspapers and periodicals, and the Internet, which includes news stories, stock
quotes/analyses, and reports from investment brokers. The second source is information
provided by the PFR. Information routinely received from the PFR includes reports related to
examination activities and assessments of risk in the institutions and a variety of quarterly and
year-end financial reports prepared by the banks. In addition to containing material that is
typically several months old, many information products the CMs receive or have access to are
filtered since they are synopsized or interpreted by the PFR before they are made available to
DOS. Such materials include, for example, summaries of meetings between examiners and bank
managers and reports related to examination activities. Case managers also have access to
examination-related data that are maintained on information systems developed by the OCC, the
Supervisory Monitoring System, and by the FRB, the Bank Online National Database.

Presence in Meetings Would Allow the FDIC to More Adequately Assess Insurance Risk

One of the most sensitive and important matters covered in our review is the issue of the FDIC’s
presence in meetings between bank management and the primary federal regulator, meetings at
which a bank’s examination findings and/or a bank’s plans to engage in new strategic initiatives
are discussed. Attending such meetings provides the FDIC with the most effective and real-time
means by which to evaluate insurance risks and is more effective than reading meeting
summaries several weeks or months after meetings occur. DOS managers stated that the FRB
and OTS are generally receptive to FDIC attendance at various management meetings. In the
case of the OCC, however, little if any progress has been achieved since the issuance of our
memorandum in October 1999. Specifically, the OCC still does not allow DOS examiners to
attend meetings with bank management, other than meetings where basic information is also
being made available to the public. Thus, for the 17 largest national banks and most national
banks in general, FDIC representatives are not being afforded the opportunity to observe
discussions relating to emerging risks, supervisory concerns, or new initiatives and management
plans. We did not meet with OCC officials to discuss this issue.

During our conversation with one case manager, we were told of a situation that seems to
exemplify the reluctance and increased concern that OCC’s Washington officials apparently
have regarding FDIC participation in OCC examinations compared to the examiners-in-charge
who are located in the OCC’s District Offices. During a meeting in Washington that was
attended by DOS CMs, an OCC executive informed the CMs that it was permissible for them to
work with their OCC counterparts in the regions to arrange for participation in examinations and
meetings with bank management. He stressed that this process was to be used on an infrequent
basis. Following the conference, a DOS case manager discussed the proposal with his OCC
counterpart and they agreed that it would be beneficial for the FDIC to assist the OCC in an
upcoming examination that targeted middle market lending. 12 They decided that one FDIC
examiner would accompany the OCC to assist in loan review. An examination was starting
within a month at another large national bank that was under the domain of the same OCC
examiner. The case manager inquired if the FDIC could send the same FDIC examiner to that

12
   Middle market lending consists of commercial loans to companies with sales ranging from $50 million and up and
lending relationships in the $5 million and higher range.

                                                       16
bank as well to assist in the targeted review of structured finance. 13 Both parties agreed to the
proposal. After the FDIC examiner arrived at the first institution and worked approximately
3 days, the FDIC case manager received a call from his OCC counterpart notifying him that the
FDIC’s participation in the bank examination was to terminate immediately. No explanation was
provided other than that this decision came from the OCC’s Washington office and not from the
OCC examiner in charge. The FDIC’s participation in the next examination was also canceled.

A DOS executive told us that while the OCC has no written policies prohibiting FDIC
attendance at meetings in large banks, OCC managers have verbally indicated that unless a bank
is troubled, they will not invite the FDIC to attend meetings. DOS further asserted that sitting in
on meetings for the purpose of becoming better informed of a bank’s activities is not permitted
by the OCC. In a memorandum to the former FDIC Chairman dated May 25, 1999, the DOS
Director stated that a DOS Associate Director had been informed by a senior OCC official that
OCC examiners have been specifically instructed not to invite FDIC examiners to attend
quarterly meetings with bank management and to turn down requests for attendance made by the
FDIC. Our conversations with many DOS case managers confirmed that they have been told
that they are not welcome to attend OCC meetings with large banks. On December 16, 1999, the
DOS Director and the Director, Division of Insurance, signed a memorandum to The Chairman’s
Working Group 14 that presented their position regarding the importance of allowing DOS
representatives to attend meetings between bankers and their primary federal regulator. The
memorandum stated in part:

        It is undisputed that a regulator can learn more, and therefore better understand the
        practices of an insured financial institution, by listening to bank management’s
        presentations, ideas, strategic plans, and responses to the PFR. It also is undisputed
        that regulators must understand the practices and policies of bank management, at all
        levels, to adequately assess the company’s risk to the deposit insurance fund. A
        common response by the PFR to the concept of FDIC presence at management
        meetings is to suggest that its examiners can effectively relay such discussions and
        presentations to the FDIC. We disagree. It is simply human nature to filter
        information and to relay information based on the presenter’s value structure. In
        other words, the FDIC loses the ability to determine what is important or not
        important when such information is conveyed by a third party. Moreover, we may
        occasionally have information needs that are not identical to the PFR (for example,
        there may be times that we need to focus more on the insurance funds’ risk to
        systemic issues than a specific bank only issue). Given the size, complexity, and
        speed upon which these entities move, FDIC presence is critical for complete and
        real time understanding of the institution, and allows us to better assess its risk to the
        deposit insurance fund, without adding any regulatory burden.


13
   Structured finance relationships are a combination of cash-flow based structures and conventional asset-based
loans used to finance mergers and acquisitions, business recapitalizations, and business expansions. They are
characterized by a degree of financial leverage that significantly exceeds industry norms as measured by various
debt, cash flow, or other ratios.
14
   A group formed by former Chairman Tanoue to address corporate operational and policy issues. Group
membership included the Directors of Supervision, Insurance, and Research and Statistics, as well as the
Corporation’s General Counsel and Chief Operating Officer.

                                                         17
       The second point we would like to discuss is the role we would play at such
       meetings. As stated earlier, our premise is that we must hear, firsthand, the ideas
       and strategies of management. Concurrent with that premise, our role at these
       meetings could be limited mostly to an observation capacity; provided that we
       would not be totally mute if a few points of clarification were needed. Otherwise,
       we would commit to discuss any areas of concern or need for clarification with the
       PFR after any such meetings so as not to usurp its relationship with bank
       management. The PFR has expressed concern that FDIC presence at such meetings
       could stifle open communication. While we disagree with that assertion, as FDIC
       presence became routine such concerns would cease to be an issue. We all play a
       critical role in the banking sector and, we believe, principals of all the agencies
       support the free flow of communication between and among insured banks and the
       banking agencies. Bankers are aware of that as well.

According to DOS management, there have been numerous examples where the FDIC has
participated in management meetings, without incident, at large banks supervised by FRB and
OTS. Further, senior management officials of these large banking companies are receptive to the
Corporation’s presence and understand the FDIC’s mission as deposit insurer. DOS believes that
attending such meetings has greatly improved the Division’s risk assessment capability.

We agree with DOS’s assertion that the FDIC’s presence in meetings between the regulators and
bank management does not represent an increase in regulatory burden, and that as the insurer, the
FDIC should attend such meetings. As we mentioned previously, DOS personnel are already
attending such meetings with the FRB and OTS, and only the OCC seems to be resisting a more
open climate of information sharing.

The FDIC’s attendance at meetings may not necessarily provide DOS’s CMs with the level of
knowledge they will need to fully understand the risks posed by the largest and most complex
banks, and a more complete grasp of megabank activities may only be achieved through an
expanded commitment of DOS’s staffing resources. Under the current case manager program, a
single case manager may be responsible for simultaneously monitoring three megabanks. This
equates to one-third of one person attempting to assess the risks in a bank where the PFR may
have committed as many as 30 or more examiners on a full-time basis.

Because of the limitations under which case managers must operate, as discussed above, the
FDIC will need to continue to pursue new ways to carry out its responsibilities, such as arranging
for DOS personnel to be onsite at selected megabanks with the other PFRs. We understand that
there is probably no single strategy that will meet all of the FDIC’s information needs for each of
the large institutions it monitors and that DOS’s effectiveness in monitoring large banks
supervised by the other PFRs may evolve over time along a variety of approaches.

In our 1999 memorandum, we suggested to the former Chairman that in order for the FDIC to attain
a higher level of understanding of the risks posed by the megabanks, she needed to direct the
highest levels of corporate management to develop information sharing agreements with the other
PFRs. Such an agreement would especially be needed with the OCC, because the numerous
megabanks it supervises are centrally managed from Washington (see Appendix II, Table 3).

                                                18
The OCC has since verbally agreed to allow DOS to review examination workpapers. When we
issued our draft report to DOS for comment, no other formal agreements had been entered into with
the other regulators. However, on January 29, 2002, the FDIC’s Board of Directors approved an
agreement developed by the FDIC and the other regulators that establishes an FDIC examiner
program at the eight largest megabanks and provides the Corporation with more autonomy to
conduct exams in non-FDIC supervised institutions. The agreement is discussed in greater detail in
the last section of this report, Corporation Comments and OIG Evaluation.

An outcome of the conditions under which the CMs are currently operating is that DOS does not
always have a comprehensive up-to-date understanding of the emerging risks that may be
developing in some of the largest banks in the country – those banks that present the greatest
insurance risk. Effective supervision of the largest financial institutions, some with worldwide
operations, requires continual monitoring and the commitment of extensive resources on the part of
the OCC, FRB, and, to a lesser extent, OTS. Although the FDIC is not the PFR for most of the
megabanks, it would be called on to deal with the failure of a megabank and the financial
consequences. Thus, the Corporation has a compelling need to become more familiar with the
activities of these institutions and with the current development of potential risks. Because the
FDIC does not have the resources to duplicate the efforts of the other regulators and because such
efforts would be disruptive to insured institutions, the Corporation must develop closer ties to its
regulatory counterparts, particularly the OCC, and continue its efforts to obtain real-time
information relative to megabank financial activities and initiatives. We are, therefore, reaffirming
the position we expressed during our prior review and making a formal recommendation to address
this matter.


Recommendation

We recommend that the Director, DOS:

(3)    Work to develop agreements with the other bank regulatory agencies to provide the FDIC
       with the timely information and access to megabanks necessary to carry out the
       Corporation’s responsibilities as the insurer.


CORPORATION COMMENTS AND OIG EVALUATION

On January 29, 2002, the DOS Director provided a written response to the recommendations
contained in the draft report. The DOS Director agreed with the report’s three recommendations
and his response is presented in Appendix V of this report.

Following the failure of Superior Bank, FSB, in July 2001, the FDIC, OCC, FRB, and OTS
formed a committee (Committee) and developed a proposal to address factors that have restricted
the FDIC’s special examination authority and the Corporation’s concerns relative to information
sharing. On January 29, 2002, the FDIC’s Board of Directors acted on the Committee’s proposal
by authorizing an expanded delegation of authority to grant the FDIC more autonomy in terms of
examining banks that pose a heightened risk to the deposit insurance funds. Under the
delegation, DOS will be able to authorize special examination activities at banks with a
                                                 19
composite rating of 3, 4, or 5, or at banks that are undercapitalized as defined under Prompt
Corrective Action, 15 without having to obtain the approval of the primary federal regulator. The
new delegation also provides for the creation of a dedicated FDIC examiner program at the eight
largest megabanks and is intended to provide more timely access to information related to those
banks.

Prior to the issuance of this report, we had an opportunity to review the draft interagency
proposal and discuss it with DOS management. We commended the Corporation’s effort to
address past problems in gaining access to and information on institutions for which the FDIC is
not the primary federal regulator. We also expressed several concerns related to limitations the
language of the agreement may place on the FDIC’s statutory authority to independently assess
risks to the deposit insurance funds.

We recommended in this report that the FDIC pursue a legislative change that would vest special
examination authority in the FDIC Chairman. We believe this is the best approach to resolving
problems related to the Corporation’s special examination authority because any agreement is
subject to interpretation and varying degrees of support when there is change among the
leadership of the four federal banking agencies. The DOS Director stated in his response that
DOS agrees with the recommendation and that revising Section 10(b)(3) of the FDI Act would
achieve a more permanent solution to inefficiencies related to the FDIC’s use of special
examination authority. As a result, the Director stated that DOS has included amending Section
10(b)(3) in its Legislative Priorities list for 2002. The decision as to whether the FDIC pursues a
legislative solution rests with the Chairman.

Recommendations 1, 2 and 3 will remain undispositioned and open until we have determined
that corrective actions have been completed and are effective.




15
  Part 325 of the FDIC Rules and Regulations, 12 CFR §325.101, et. seq, implements section 38 of the FDI Act,
12 USC §1831(o), by establishing a framework for taking prompt supervisory actions against insured nonmember
banks that are not adequately capitalized.

                                                      20
                                                                                   APPENDIX I

                              SCOPE AND METHODOLOGY


This is a follow-up review of DOS’s efforts to monitor risk at insured institutions for which the
FDIC is not the primary federal regulator. The objective of this review was to assess the progress
that the FDIC has made since our previous review and to make recommendations that might improve
the Corporation’s effectiveness in working with the other federal regulators.

Our audit work included reviewing and analyzing monthly reports prepared by DOS and
presented to the FDIC Board detailing instances where DOS had carried out special examination
activities derived from Section 10(b) of the Federal Deposit Insurance Act. We reviewed DOS’s
nationwide special examination activities for the 17-month period ending February 28, 2001.
We also identified, by regulator, those financial institutions with $25 billion or more in total
assets. We visited DOS’s Atlanta, Chicago, and New York Regional Offices and interviewed
Regional Directors, Deputy Regional Directors, Assistant Regional Directors, and Case
Managers. We also interviewed DOS officials in Washington. We reviewed policies,
procedures, Regional Director Memoranda, and documents related to the closing of Superior
Bank, FSB, Hinsdale, Illinois, on July 27, 2001. In addition, we contacted the DOS Regional
Directors in Boston, Dallas, Kansas City, Memphis, and San Francisco to inquire about the
cooperation received from the other federal regulators. Our analysis of cases those offices
reported to us included a review of supporting documentation submitted by DOS.

As the Office of Inspector General for the FDIC, we reviewed the issues addressed in this report
solely from the perspective of the FDIC in its efforts to effectively carry out its mission. We,
therefore, did not hold discussions or solicit the opinions of FRB, OCC, or OTS officials
regarding any of the matters addressed in this report, nor did we collect or review documents
from these organizations.




                                               21
                                                                                                         APPENDIX II

            BANKS SUPERVISED BY THE PRIMARY FEDERAL REGULATORS

Table 3: National Megabanks Regulated by the OCC as of 3/31/01

(000s Omitted)
       Bank Name                      Consolidated           % of the         Total Bank          Total Bank
                                        Assets               Subtotal           Assets             Deposits
Citibank, N.A.                            $944,327,000             28.26       $395,869,000         $283,656,000
Bank of America, N.A.                      609,755,000             18.25        553,509,000          371,024,000
Wells Fargo Bank, N.A.                     279,670,000              8.37        124,137,000           74,775,000
Bank One, N.A.                             274,352,000              8.21        141,439,135           54,375,506
First Union National Bank                  252,949,000              7.57        232,608,000          145,407,000
Fleet National Bank                        211,741,000              6.33        200,887,000          134,530,000
U. S. Bank, N.A.                           160,274,000              4.80         79,590,882           51,196,379
LaSalle Bank, N.A.                          99,859,000              2.99         52,596,804           30,075,300
National City Bank                          90,818,000              2.72         35,947,178           19,193,866
Keybank, N.A.                               86,457,000              2.59         76,665,585           43,429,381
Wachovia Bank                               75,606,000              2.26         68,284,706           45,692,667
PNC Bank, N.A.                              70,966,000              2.12         64,533,206           45,653,355
Mellon Bank, N.A.                           46,283,000              1.38         37,556,453           24,205,339
MBNA America Bank, N.A.                     39,263,000              1.17         37,194,957           24,990,129
Union Bank of California                    35,808,000              1.07         35,467,235           28,832,034
Union Planters National Bank                35,423,000              1.06         33,879,104           22,489,965
The Huntington National Bank                28,441,000              0.85         28,223,792           19,351,512

                         Subtotal       $3,341,992,000             100%      $2,198,389,037       $1,418,877,433
Source: OIG Analysis from DOS Large Insured Depository Institution Report as of 3/31/01 and FDIC Institution List


Table 4: State Member Megabanks Regulated by the FRB as of 3/31/01

(000s omitted)
         Bank Name                     Consolidated          % of the         Total Bank           Total Bank
                                         Assets              Subtotal           Assets              Deposits
Chase Manhattan Bank                       $713,624,000             51.76       $400,623,000        $243,608,000
SunTrust Bank, Atlanta                      103,726,000              7.52        100,442,885          63,016,720
HSBC Bank USA                                84,486,000              6.13         81,825,949          58,475,526
Bank of New York                             73,073,000              5.30         70,232,359          50,844,619
Fifth Third Bank                             71,468,000              5.19         33,787,198          18,809,311
State Street Bank & Trust Comp               67,605,000              4.90         62,662,689          38,049,837
Bankers Trust Company                        60,472,000              4.39         41,874,000          20,380,000
Comerica Bank                                50,270,000              3.65         36,402,611          22,213,569
SouthTrust Bank                              45,957,000              3.33         46,018,713          28,795,385
AmSouth Bank                                 38,825,000              2.82         38,830,244          26,265,905
Northern Trust Company                       38,197,000              2.77         31,862,721          18,985,064
Manufacturers & Traders Trust                30,924,000              2.24         30,038,291          20,325,853

                          Subtotal       $1,378,627,000             100%        $974,600,660        $609,769,789
Source: OIG Analysis from DOS Large Insured Depository Institution Report as of 3/31/01 and FDIC Institution List




                                                             22
Table 5: Thrift Megabanks Regulated by the OTS as of 3/31/01

(000s omitted)
         Bank Name                     Consolidated          % of the         Total Bank          Total Bank
                                         Assets              Subtotal           Assets             Deposits
Washington Mutual Bank, FA                 $219,925,000             50.75       $35,778,000           $14,775,000
California Federal Bank, FSB                 61,768,000             14.25        61,691,429            24,922,588
World Savings Bank, FSB                      56,732,000             13.09        56,770,025            31,500,004
Sovereign Bank, FSB                          34,049,000              7.86        34,013,302            23,096,236
Charter One Bank, FSB                        33,831,000              7.81        33,767,273            20,156,919
Dime Savings Bank of NY, FSB                 27,050,000              6.24        27,045,326            14,650,266

                          Subtotal         $433,355,000             100%       $249,065,355         $129,101,013
Source: OIG Analysis from DOS Large Insured Depository Institution Report as of 3/31/01 and FDIC Institution List




Table 6: State Non-Member Megabanks Regulated by the FDIC as of 3/31/01

(000s omitted)
        Bank Name                     Consolidated           % of the        Total Bank           Total Bank
                                        Assets               Subtotal          Assets              Deposits
Branch Banking & Trust Comp                 $62,120,000             38.23       $49,465,937           $28,874,027
Merrill Lynch Bank USA                       54,233,000             33.37        54,233,264            50,119,288
Regions Bank                                 46,143,000             28.40        43,359,045             3,057,223

                         Subtotal          $162,496,000            100%        $147,058,246           $82,050,538
Source: OIG Analysis from DOS Large Insured Depository Institution Report as of 3/31/01 and FDIC Institution List




Table 7: Comparison of Megabanks According to Primary Federal Regulator as of 3/31/01
(000s omitted)
Regulator           Consolidated               % of the              Total Bank                Total Bank
                      Assets                    Total                  Assets                   Deposits
OCC                      $3,341,992,000                  62.86          $2,198,389,037            $1,418,877,433
FRB                       1,378,627,000                  25.93             974,600,660               609,769,789
OTS                         433,355,000                   8.15            249,065,355,               129,101,013
FDIC                        162,496,000                   3.06             147,058,246                82,050,538

Total                    $5,316,470,000                  100%           $3,569,113,298            $2,239,798,773
Source: OIG Analysis from DOS Large Insured Depository Institution Report as of 3/31/01and FDIC Institution List




                                                             23
                                                                                            APPENDIX III

                                 INSURANCE FUND LOSS RATES

The FDIC maintains statistical information regarding the losses incurred by the deposit insurance
funds resulting from the failure of insured institutions. The total estimated losses as a percentage
of the institutions’ total assets (loss rate) are detailed below.


           Table 8: Estimated Loss Rates for All Failed Insured Depository
                    Institutions for the Past 5, 10, and 15 Years

              Years               1996-2000              1991-2000              1986-2000
           Loss Rates              48.15%                  9.50%                 13.00%

           # of Banks                  22                    331                  1,335

          Source: OIG Analysis from DOF’s Failed Bank Cost Analysis 1986-2000


The loss rate percentage for the 5-year period is more than five times the loss rate for the 10-year
period due to costly failures that were incurred in 1998 and 1999.

If the deposit insurance funds incur additional losses, all insured depository institutions could be
required to begin paying insurance premiums. As of September 30, 2001, losses of
approximately $1.8 billion against the BIF and approximately $1.1 billion against the SAIF
would be sufficient to trigger insurance premiums for all institutions covered by the respective
fund. Using the loss rates in the above table, we calculated the size of the financial institution or
combination of institutions that would cause the BIF or SAIF to fall below the reserve ratio as
shown in the tables below.


          Table 9: Dollar Size of Insured Depository Institution(s) that Would Cause the
                   BIF to Fall Below the Minimum 1.25% ($ in billions)

              Loss Rates              48.15%                9.50%                13.00%
            Institution Size            $3.7                 $18.9                $13.8
          Source: OIG Analysis from DOF’s Failed Bank Cost Analysis 1986-2000



          Table 10: Dollar Size of Insured Depository Institution(s) that Would Cause the
                    SAIF to Fall Below the Minimum 1.25% ($ in billions)

               Loss Rates              48.15%               9.50%                13.00%
             Institution Size            $2.3                $11.6                 $8.5
          Source: OIG Analysis from DOF’s Failed Bank Cost Analysis 1986-2000




                                                       24
                                                                                     APPENDIX IV

                       LEGISLATIVE AND REGULATORY HISTORY

The FDIC’s special insurance examination authority is derived from Section 10(b)(3) of the Federal
Deposit Insurance Act. However, under current delegated authority within FDIC, DOS examiners
do not have the authority to perform an independent on-site evaluation of a bank's activities, even if
the bank is in a troubled condition, without the approval of the bank’s primary federal regulator or
the FDIC Board of Directors.

With the addition of Section 10(b)(3) to the FDI Act in 1950, the Board of Directors of the FDIC
was granted the unilateral authority it has today to examine any insured bank for insurance
purposes without concurrence by the other federal or state regulators. This subsection, entitled
Special Examination of Any Insured Depository Institution, provides that FDIC examiners shall
have power, on behalf of the Corporation, to make any special examination of any insured
depository institution whenever the Board of Directors determines a special examination of any
such depository institution is necessary to determine the condition of such depository institution
for insurance purposes. The FDIC supported the addition of this authority to the FDI Act
because, prior to that time, the FDIC’s only access to information concerning banks for which it
was not the primary regulator was through the primary federal regulator. The FDIC believed this
authority was necessary to discharge its role as deposit insurer. Congress agreed, despite
objection, that the special examination power could result in duplicative and burdensome
examinations.

In 1982, the Board authorized the Division of Bank Supervision (DBS, now DOS) to assign
FDIC examiners to participate in the examination of a national or state member bank when
invited by the OCC or the Federal Reserve, respectively, and to negotiate with the OCC and the
FRB on the “triggering points” for the issuance of such invitations. Subsequently, on
December 23, 1983 the FDIC Board of Directors authorized FDIC examiners to participate in the
examination of national banks, pursuant to certain terms and conditions contained in the
“Cooperative Examination Program” agreed to by the OCC Senior Deputy for Bank Supervision
and the FDIC Director of DBS as of December 2, 1983.

In August 1989, the Financial Institutions Reform, Recovery, and Enforcement Act of 1989
(FIRREA), created the Savings Association Insurance Fund and extended the FDIC’s special
examination authority to cover insured savings associations. In connection with these changes,
the FDIC Board of Directors delegated authority to the DOS Director to: (1) initiate an
examination or special examination of any insured savings association to determine its condition
for insurance purposes and (2) work toward establishing a cooperative examination program with
the OTS for insured savings associations. During 1989 and 1990, the FDIC examined many
federally chartered savings and loan associations pursuant to a directive from then FDIC
Chairman William Seidman.

The enactment of FIRREA also caused the composition of the FDIC Board of Directors to be
increased from 3 to 5 members. The FDIC Vice Chairman and the Director of the Office of



                                                  25
Thrift Supervision were added to the Board, joining the FDIC Chairman, the FDIC Director, and
the Comptroller of the Currency.

In 1993, the FDIC Board of Directors rescinded the earlier delegations of special examination
authority unless extraordinary threats to a deposit insurance fund could be demonstrated. Any
such examination would require Board approval. At the time the earlier delegation was
rescinded, the FDIC Board was comprised of the Acting Chairman, the Acting Director of OTS,
and the Comptroller of the Currency.

In March 1995, the FDIC Board of Directors delegated authority to the FDIC Director of DOS to
approve special examinations: (1) when the primary federal regulator has invited FDIC
participation, (2) for institutions rated CAMELS 4 or 5 or situations of potential or likely failure of
an institution within a 1-year time frame and when the primary federal regulator does not object to
FDIC’s participation, and (3) for examination activities where there are material deteriorating
conditions not reflected in an institution’s current CAMELS rating and when the primary federal
regulator does not object to FDIC’s participation. In all other cases, DOS is required to prepare a
case for presentation to the FDIC Board that is sufficient to justify FDIC participation over the
objection of the primary federal regulator.




                                                   26
                                                                               APPENDIX V
Federal Deposit Insurance Corporation
550 17th St. NW Washington DC, 20429                                               Division of Supervision


                                                         January 25, 2002


TO:                 Stephen M. Beard, Deputy Assistant Inspector General
                    Office of the Inspector General

FROM:               Michael J. Zamorski, Director
                    Division of Supervision

SUBJECT:            Draft Report on the FDIC's Use of Special Examination Authority and the
                    Division of Supervision’s Efforts to Monitor Large Bank Insurance Risks


The Division of Supervision (DOS) appreciates the opportunity to respond to this draft report.
We share your concerns regarding the current limitations on the FDIC’s use of Special
Examination Authority, and we agree that these limitations restrict the FDIC’s ability to assess
emerging risks to the deposit insurance fund in a timely and efficient manner. Shortly after the
Superior Bank, FSB, failure in July 2001, the FDIC, Office of the Comptroller of the Currency
(OCC), Office of Thrift Supervision (OTS), and Federal Reserve Board (FRB) formed a
committee (Committee) to address the FDIC’s special examination authority and supervisory
information sharing. The Committee is finalizing a proposal that addresses these issues. The
proposal will allow the FDIC greater flexibility in conducting timely assessments of insured
depository institutions (IDI) that present heightened risk to the deposit insurance funds. Under
the proposed program, the FDIC Board of Directors would delegate special examination
authority for institutions presenting heightened risk to the deposit insurance funds to DOS. The
Committee’s proposal also addresses OIG concerns regarding FDIC access to megabanks and
acquisition of timely information about those banks. The proposal establishes a dedicated FDIC
examiner program for the eight largest institutions, and it sets forth protocols on enhanced
information sharing that will allow more efficient and comprehensive analysis of large
(megabanks) and small IDIs alike. The Committee’s proposals will be presented to the Board on
January 29, 2002.


Recommendations Concerning Special Examination Authority:

Pursue an amendment to Section 10(b)(3) of the FDI Act (12 U.S.C. section 1820(b)(3)) to vest
special examination authority with the FDIC Chairman in consultation with the appropriate
primary federal regulator.

We agree with this recommendation. The proposed program (discussed in detail below)
addresses OIG concerns regarding the FDIC’s special examination authority; nonetheless, a
revision of Section 10(b)(3) of the FDI Act would achieve a more permanent solution to
inefficiencies related to the FDIC’s use of special examination authority. In that light, we have




                                                    27
already included amending 10(b)(3) in our Legislative Priorities list for 2002. The Chairman
will decide whether the FDIC pursues a legislative solution to this problem.


Seek a revised Board delegation that vests special examination authority with the FDIC
Chairman in consultation with the appropriate primary federal regulator, as an interim measure
pending a legislative amendment.

We agree with this recommendation. As stated previously, a committee comprised of
representatives of the FDIC, OTS, OCC, and FRB are in the final stages of developing special
examination program that will, among other things, grant the FDIC more autonomy in terms of
examining banks that pose a heightened risk to the deposit insurance fund. If the Board approves
the Committee’s proposal, responsibility for authorizing special examination activities at banks
that pose heightened risk to the deposit insurance fund will be delegated to the Division of
Supervision. Institutions that pose heightened risk to the deposit insurance funds will include
IDIs with a composite rating of 3, 4, or 5; and IDI’s that are undercapitalized as defined under
Prompt Corrective Action.

Under the proposed program, the FDIC will be required to ask the primary federal regulator
(PFR) if it can participate in examinations of IDIs rated 1 or 2 that are exhibiting material
deteriorating conditions or other adverse developments. If the agencies (PFR and FDIC) cannot
agree as to whether the FDIC should be allowed to participate in an examination, the two
agencies’ Representatives to the FFIEC Supervision Task Force will determine whether such a
material deteriorating condition or adverse development exists. In the event the two
representatives cannot agree, the Chairman of the FDIC and the principal of the relevant agency
(or the Governor that is a member of the FFIEC in the case of the FRB) will determine whether
FDIC participation is warranted. The FDIC will not prepare a separate report of examination for
these activities except in situations where it anticipates an enforcement action.

The Committee’s proposal will be presented to the Board on January 29, 2002.


Recommendation Concerning the FDIC’s Efforts to Monitor Large Bank Insurance Risks:

Work to develop agreements with the other bank regulatory agencies to provide the FDIC with
the timely information and access to megabanks necessary to carry out the Corporation’s
responsibilities as the insurer.

We agree with this recommendation, and the Committee’s proposal will ensure that the OCC,
OTS, and FRB provide the FDIC with the information and access that it needs to carry out its
role as insurer. As discussed previously, the Committee’s proposal will create a dedicated FDIC
examiner program at the eight largest megabanks and ensure more timely access to relevant
information related to those and other banks. The dedicated examiner program will work within
existing supervisory programs of the appropriate agencies in order to avoid any increase in
regulatory burden or duplication of effort. The proposal requires supervisory personnel of the
primary federal regulator (PFR) to keep the FDIC’s dedicated examiner informed of all material

                                               28
developments in the supervision of the institution. The proposal also requires the PFR to invite
the dedicated examiner to observe and participate in certain examination activities to ensure the
FDIC has an understanding of the supervisory issues and risk management structure of the
institution.

The dedicated FDIC examiner will be allowed to participate in selected supervisory reviews,
including meetings with bank management relating to those reviews, if the relevant agency
agrees that participation by the FDIC is necessary to evaluating the risk a particular activity
poses to the deposit insurance fund. In the event the agencies’ staffs cannot agree, the respective
agencies’ representatives to the FFIEC Supervision Task Force will determine whether FDIC
participation is appropriate. In the event the two representatives cannot agree, the Chairman of
the FDIC and the principal of the relevant Agency (or the governor that is a member of the
FFIEC in the case of the FRB) will resolve the dispute.

The proposal will also require the OCC, OTS, and FRB to share relevant supervisory information
related to large insured depository institutions with the FDIC. In addition, the Program will
mandate quarterly meetings between the agencies to discuss the risk profile, current condition,
and status of identified supervisory matters at large IDIs. The Program also requires FDIC
participation of credits within the Shared National Credit Program in Large IDIs.

The Committee’s proposals regarding the monitoring of large bank insurance risks will be
presented to the Board on January 29, 2002.




                                                29
November 6, 2002
Audit Report No. 03-004



OCC’s and OTS’s Responses to the
OIG’s February 2002 Follow-Up
Report on the FDIC’s Use of Special
Examination Authority and DOS’s
Efforts to Monitor Large Bank
Insurance Risks (Audit Report
No. 02-004)




              27
                                 CONTENTS


BACKGROUND                                                                        1

OBJECTIVE AND SCOPE                                                               3

REVIEW RESULTS                                                                    4

     Interpretation of the Special Examination Authority Statute                  4

     The FDIC’s Need for Unrestricted Access to Information on All Insured
     Depository Institutions                                                      5

     Office of Inspector General Compliance with Government Auditing Standards    7

APPENDIXES

     Appendix I:   Letter from the Office of the Comptroller of the Currency
                   and OIG Comments                                               9

     Appendix II: Letter from the Office of Thrift Supervision
                  and OIG Comments                                               32
Federal Deposit Insurance Corporation
Washington, D.C. 20434                                                                       Office of Inspector General



   DATE:            November 6, 2002

   TO:



   FROM:


   SUBJECT:         OCC’s and OTS’s Responses to the OIG’s February 2002 Follow-Up
                    Report on the FDIC’s Use of Special Examination Authority and DOS’s Efforts to
                    Monitor Large Bank Insurance Risks (Audit Report No. 02-004)
                    (Audit Report No. 03-004)

   This report (No. 03-004) responds to comments that we received from the Office of the
   Comptroller of the Currency (OCC) and the Office of Thrift Supervision (OTS) on our audit
   report entitled, Follow-Up Audit of the FDIC’s Use of Special Examination Authority and DOS’s
   Efforts to Monitor Large Bank Insurance Risks (Audit Report No. 02-004, dated February 20,
   2002). The comments were provided in letters to the FDIC Chairman from the Comptroller of
   the Currency and the Director of OTS following the issuance of our report. 1 The OCC and the
   OTS letters to the Chairman are presented in their entirety as Appendixes I and II. These
   appendixes also present our views and comments on a number of specific points that the OCC
   and the OTS raised relative to our February 2002 report.


   BACKGROUND

   In a memorandum to the FDIC Chairman in October 1999, we reported the results of a study we
   conducted of the Division of Supervision’s (DOS)2 efforts to monitor and assess risks at insured
   institutions for which the Federal Deposit Insurance Corporation (FDIC) is not the primary federal
   regulator (PFR). 3 We reported that other federal regulators had in several instances restricted the
   FDIC’s efforts to participate in safety and soundness examinations at institutions for which the

   1
     The OCC’s letter was dated May 30, 2002, and the OTS’s letter was dated June 13, 2002.
   2
     As part of an FDIC reorganization implemented on June 30, 2002, the Division of Supervision (DOS) merged with
   the Division of Compliance and Consumer Affairs (DCA) and was renamed the Division of Supervision and
   Consumer Protection (DSC). In most cases throughout the report, we refer to this Division as DOS.
   3
     A bank’s primary federal regulator is determined by the bank’s charter and whether a bank is a member of the
   Federal Reserve System. The FDIC is the primary federal regulator for state-chartered banks that are not members
   of the Federal Reserve System. The OCC is the primary federal regulator for all national banks. The Board of
   Governors of the Federal Reserve System (FRB) is the primary federal regulator for state chartered banks that are
   members of the Federal Reserve System. The OTS is the primary federal regulator for federal and state-chartered
   savings associations.
Corporation is not the PFR. Such restrictions had limited the FDIC’s ability to assess risks to the
deposit insurance funds. We also reported that because of limitations in the information routinely
provided to DOS by the other regulators pertaining to the nation’s largest banks, DOS may not be
able to adequately assess the risks that the country’s largest non-FDIC supervised banks pose to the
insurance funds. In our 1999 memorandum, we suggested that the Chairman (1) request delegated
authority from the FDIC Board of Directors 4 to initiate special examinations without having to
secure the concurrence of the primary federal regulator or the approval of the Board or (2) seek a
legislative change to vest this authority in the Chairman. Doing so would give the FDIC Chairman
the authority (under subsection 10(b)(3) of the Federal Deposit Insurance Act) to initiate
examinations of any insured depository institution using FDIC examiners to determine the
institution’s condition for insurance purposes.

The objective of our follow-up review was to assess the progress that the FDIC had made since
the issuance of our previous memorandum and to make recommendations that might improve the
Corporation’s effectiveness in working with the other federal regulators. We reviewed the issues
from the FDIC perspective using the same information provided or otherwise available to the
FDIC in its efforts to effectively carry out its mission as deposit insurer. We did not perform
audit fieldwork at the OCC, OTS, or the FRB.

Our follow-up review did not identify any additional instances where another regulator turned down
an FDIC request to participate in an examination. However, DOS officials informed us of several
cases where examiners experienced delays in receiving requested information from another regulator
or were not provided sufficient time during examinations to review certain bank conditions. With
respect to the nation’s largest banks (megabanks), our follow-up review showed that FDIC officials
have continued to evaluate risk exposures by using information that is mostly historical in
perspective and filtered or interpreted by the other regulators before it is made available to the FDIC.
We also observed that the OCC had maintained its policy of not allowing DOS personnel to attend
meetings between OCC examiners and bank management.

Based on the results of our follow-up review, the circumstances supporting our previous
suggestions had not substantially changed, and conditions in the industry and the consequences of
additional failures posed continuing risks to the deposit insurance funds. Accordingly, we
recommended that the FDIC’s special examination authority be strengthened through a legislative
change. Additionally, we reaffirmed the position that we expressed in our prior review by
recommending that DOS develop agreements with the other bank regulatory agencies to provide the
FDIC with the real-time information and access to megabanks necessary to carry out the
Corporation’s responsibilities as the insurer. DOS agreed with our recommendations.

Following the failure of Superior Bank, FSB, in July 2001, the FDIC, OCC, FRB, and OTS formed a
committee (Committee) and developed a proposal to address factors that have restricted the FDIC’s
special examination authority and the Corporation’s concerns relative to information sharing. On
January 29, 2002, the FDIC’s Board of Directors acted on the Committee’s proposal by authorizing


4
 The five-member Board is composed of the FDIC Chairman and Vice Chairman, the FDIC Director, the
Comptroller of the Currency, and the Director of the Office of Thrift Supervision.
                                                          2
an expanded delegation of authority to grant the FDIC more autonomy in terms of examining banks
that pose a heightened risk to the deposit insurance funds. Under the delegation, DOS will be able to
authorize special examination activities at banks with a composite rating of 3, 4, or 5, or at banks that
are undercapitalized as defined under Prompt Corrective Action, 5 without having to obtain the
approval of the primary federal regulator. The new delegation also provides for the creation of a
dedicated FDIC examiner program at the eight largest megabanks and is intended to provide more
timely access to information related to those banks.


OBJECTIVE AND SCOPE

The objective of this review was to assess additional information provided by the OCC and the OTS
on various issues and events addressed by our report and determine what, if any, modifications are
needed to our February 2002 report. The body of this current report addresses the following three
major issues raised in the letters:

    Ø interpretation of the Special Examination Authority statute,
    Ø the FDIC’s need for unrestricted access to information on all insured depository institutions,
        and
    Ø the OIG’s compliance with government auditing standards in conducting the audit.

We performed the original audit in accordance with generally accepted government auditing
standards and relied on that audit to fulfill certain objectives of this review. Specifically, we
conducted this limited scope review between June and August 2002 in accordance with generally
accepted government auditing standards, modified as follows. We did not assess internal control,
review performance reporting, test for fraud and illegal acts, or test for compliance with laws and
regulations. Further, we did not perform additional tests of the reliability of computer processed
data. Instead, we relied on our original aud it in order to avoid duplication of effort in these areas.

Finally, because we had received responses from the OCC, OTS, and FDIC on our February 2002
report and were limiting our work to determining whether our prior report required modification, we
did not obtain written comments from them on this report. We met with and obtained DSC
management’s views after we had provided them an opportunity to review a preliminary version of
this report. DSC disagreed with the characterization of certain events and facts described in the OCC
and OTS letters, but noted that the responses referred to very dated situations. DSC also indicated
that these situations have been overtaken by subsequent expressions of cooperation from the most
senior levels of the OCC and OTS. DSC further indicated that it is pleased with the January 2002
interagency agreement, and that the relationship with the other PFRs is working well.




5
 Part 325 of the FDIC Rules and Regulations, 12 CFR §325.101, et. seq, implements section 38 of the FDI Act,
12 USC §1831(o), by establishing a framework for taking prompt supervisory actions against insured nonmember
banks that are not adequately capitalized.
                                                       3
REVIEW RESULTS

Based on our review of the letters provided by the OCC and OTS, and meeting with FDIC officials,
we reaffirm our prior conclusions and recommendations presented in our February 2002 report. This
subsequent report contains no recommendations. Concerning the interpretation of the Special
Examination Authority statute, we believe that the independence envisioned by Congress in vesting
control over the exercise of special examination authority in the FDIC is fundamentally altered when
an FDIC vacancy exists on the Board of Directors. In our view, that independence should be
maintained at all times by vesting special examination authority in the Chairman. The OCC and the
OTS expressed the opinion that the expanded delegation of authority by the FDIC’s Board of
Directors in January 2002 will resolve the concerns expressed in our February 2002 report relative to
the FDIC’s need for unrestricted access to information on all financial institutions. While the
agreement represents progress for interagency examination coordination, it does not fully resolve the
need for the FDIC to assess risks in well-rated institutions, and for a Federal Deposit Insurance Act
amendment to vest special examination authority with the FDIC Chairman. Finally, our work on the
audit met the Government Auditing Standards.

Interpretation of the Special Examination Authority Statute


The OCC and the OTS letters call into question our interpretation of the special examination
statute. Their comments revisit a debate among various regulators during hearings in 1950 on
the proposed amendments to the FDI Act through which Congress established the FDIC’s
explicit special examination authority. Section 10(b)(3) of the Federal Deposit Insurance Act
authorizes examiners appointed by the Board of Directors “to make any special examination of
any insured depository institution whenever the Board of Directors determines a special
examination of any such depository institution is necessary to determine the condition of such
depository institution for insurance purposes.” [12 U.S.C. §1820(b)(3)]. 6 Congress emphasized,
and the FDIC through then-Chairman Maple Harl accepted, that special examination authority
would be invoked when the FDIC was unable to get sufficient information from the
examinations of insured institutions by other primary federal regulators, not for the purpose of
conducting duplicate examinations. (96 Cong. Rec. 15,145). In his response, the Comptroller of
the Currency cites conference report language that discusses Congress’s expectations relative to
conditions when the special examination authority is to be used. Specifically, it states the
authority should be used only in cases where, in the judgement of the FDIC Board of Directors,
after review of the reports of the PFR, there are:

      (1) indications that the bank may be a problem case, or
      (2) the bank is in a condition likely to result in losses to the depositors or to the Corporation.

At the time of the 1950 amendments to the FDI Act, the FDIC’s Board of Directors consisted of
three members, one of whom (the Comptroller of the Currency) was an independent regulator.
This meant that the FDIC, through its two Board members, could independently decide to
exercise special examination authority even if opposed by the outside director. As a result of the

6
    The statute does not discuss who will be the appointed examiners to conduct special examinations.
                                                            4
1989 amendments to the FDI Act, the Board of Directors was increased to five members, two of
whom (the Comptroller of the Currency and the Director of the Office of Thrift Supervision) are
independent regulators. Therefore, the 1989 amendments preserved the independence of the
FDIC to make determinations concerning the exercise of special examination authority by virtue
of the majority of Board positions being internal to the FDIC. A quorum of the Board of
Directors consists of a majority of the members, and positions on the Board held by individuals
other than other the Comptroller and the Director of OTS were frequently vacant during the
1990s. Under these circumstances (i.e., a vacancy in one or more of the internal FDIC Board
positions), decisions to invoke the FDIC’s special examination authority could again require the
de facto consent of independent regulators. The independence envisioned by Congress in vesting
control over the exercise of special examination authority in the FDIC is thus altered
fundamentally when an FDIC vacancy exists on the Board of Directors. That independence, in
our view, should be maintained at all times by vesting special examination authority in the
Chairman.

The FDIC’s Need for Unrestricted Access to Information on All Insured Depository
Institutions

In their letters, both the OCC and the OTS question the FDIC’s need for unrestricted access to
information on banks for which the Corporation is not the PFR. In addition to supervising state
nonmember banks in the role of a primary regulator, the Corporation is also responsible for
managing the insurance funds, ensuring that failing institutions are resolved in the least costly
manner, and maximizing the value of failing banks’ receivership assets. 7 Given the broad range
of the FDIC’s supervisory responsibilities, and because of the Corporation’s role and
responsibility as the deposit insurer for the nation’s banking industry, there is a clearly defined
need for the FDIC to act in an independent manner in its efforts to evaluate insurance risk and
gain access to financial records in banks supervised by the other PFRs. The FDIC has a need
and a responsibility to develop information on core risk areas to facilitate analyses of insurance
fund exposures and continually maintain an up-to-date understanding of specific vulnerabilities
that could lead to significant insurance losses. This need is especially crucial in the nation’s
largest financial institutions for which the FDIC is almost totally dependent on the other PFRs
for monitoring the largest potential risks to the deposit insurance funds. As discussed in our
February 2002 report, the failure of a single large institution, coupled with the losses sustained in
recent failures, could create a situation where all depository institutions would be required to
begin paying deposit insurance premiums.

The FDIC’s lack of independence to determine when and where DOS can obtain information
related to safety and soundness and insurance concerns is inconsistent with the Corporation’s
authority when ruling on rating differences with the other PFRs. In accordance with section 327
of the FDIC’s Rules and Regulations, the FDIC has the final word when assigning ratings for
insurance purposes, and these ratings impact the insurance premium assessments banks are



7
  A receiver is an agent (in the instance of a failed institution, the FDIC) appointed by a failed institution’s primary
regulator to manage the orderly liquidation of the failed institution.
                                                               5
assigned. Thus, while the FDIC has full authority to assign risk ratings for insurance purposes, it
does not have the equivalent autonomy to obtain the information needed to assign the ratings.

Both the OCC and the OTS expressed the opinion that the expanded delegation of authority
granted by the FDIC’s Board of Directors in January 2002 will resolve the concerns expressed in
our report and permit the FDIC to fulfill its responsibilities as the deposit insurer. We continue
to believe, however, that while the agreement between the regulators represents progress for
interagency examination coordination, it does not fully resolve legitimate FDIC needs. There are
instances in which well-rated banks engage in risky or emerging activities that could jeopardize
their safety and soundness if adequate policies and procedures have not been developed and
implemented. DOS uses various off-site techniques to gather information on such activities. For
example, information that shows one or more of the following conditions can indicate problems:

    (1) inordinate growth within a short time frame,
    (2) significant disparities in performance indicators between an institution and its peer
        groups, or
    (3) allegations of fraudulent activities on the part of bank officials.

When the FDIC identifies such vulnerabilities, it has a need and responsibility, together with the
PFR, to promptly investigate those vulnerabilities and assess and mitigate potential significant
insurance losses.

We note that had the provisions of the agreement been in effect in the 1990s, for example, the
agreement would not have ensured that the FDIC could have gained access to Superior Bank,
when it originally requested to do so in December 1998, without first going to the FDIC’s Board
of Directors. Superior was a well-rated bank at that time, and it is unclear whether there was
sufficient evidence of material deteriorating conditions at the bank to warrant the FDIC’s
involvement in a special examination. Had the FDIC and the OTS been working more closely
together at that time, rather than a year later, losses to the insurance funds may have been
reduced. With respect to the substance of our report, we would reiterate our conclusion that, to
guarantee the FDIC’s independence as insurer, we believe that statutory authority for the
exercise of the FDIC’s special examination authority should be vested with the Chairman via an
amendment to the Federal Deposit Insurance Act. As we state in our report,

       Vesting special examination authority directly with the FDIC Chairman would serve to strengthen the
       effectiveness of the Corporation’s secondary level review of safety and soundness concerns…The
       proper use of the FDIC’s special examination authority would not duplicate or disrupt the other PFR’s
       efforts, but would provide the FDIC with a more timely approach for gaining a firsthand understanding,
       along with the PFR, of potential risks facing both financial institutions and the insurance funds…

It is our opinion that the existence of such statutory authority would recognize the FDIC’s shared
interest as insurer in minimizing losses to the insurance funds and serve to avoid FDIC access
issues in the first place by fostering cooperation with the PFR.



                                                 6
Office of Inspector General Compliance with Government Auditing Standards

Both letters address the point that our office did not solicit input from OCC or OTS prior to issuing
our report in draft or in final. The OTS letter in particular states that our office failed to meet the
spirit and intent of the Government Auditing Standards promulgated by the General Accounting
Office related to soliciting the views of responsible management officials. Because we did not
provide OTS officials an opportunity to review and comment on the report before it was issued, the
Director states that the report is not fair, complete, or objective. In our opinion, our work on the
audit met the Government Auditing Standards.

The objective of our February 2002 review was to assess the progress that the FDIC had made in
monitoring and assessing risk at insured institutions for which the FDIC is not the PFR. Thus, we
viewed the FDIC as the auditee. Further, as the FDIC OIG, we do not have audit cognizance for
Department of the Treasury activities and operations, including those of the OTS and the OCC.8
Accordingly, as stated on page 1 of the February 2002 report, we relied solely on information
provided by the FDIC and documentation obtained from FDIC officials. We repeat that scope
limitation in several places in the report where it was relevant and appropriate to do so. Including
such information is consistent with Section 7.14 of the Government Auditing Standards, which states
that “Auditors should also report significant constraints imposed on the audit approach by data
limitations or scope impairments.” We further described our audit methodology in Appendix I of the
report, Scope and Methodology, as required by Section 7.15.

The Government Auditing Standards also require that sufficient, competent, and relevant
evidence be obtained to afford a reasonable basis for the auditors’ findings and conclusions. We
met this standard within the context of the scope limitation discussed above. As noted in our
scope and methodology, our analysis of the cases where FDIC DOS officials expressed concerns
over delays experienced in receiving requested information from another PFR or where DOS
examiners were not provided sufficient time during examinations to review certain bank
conditions included a review of supporting documentation provided by DOS. We relied on this
documentation for our findings and conclusions. However, as noted in the report, a fundamental
component of the FDIC’s approach to monitoring institutions that are regulated by other PFRs is
the personal relationships that case managers develop with their counterparts in the other
regulatory agencies. As such, the case managers’ requests for access to meetings and
information associated with other regulators’ institutions were largely communicated through
phone calls and electronic mail, as were the responses. Accordingly, we often had to also rely on
testimonial evidence provided by FDIC officials, or a combination of documentation and
interviews, to support our findings and conclusions. Thus, we relied on the information used by
case managers as they are the key officials responsible for monitoring risks in institutions
supervised by the other PFRs. We evaluated the fulfillment of those responsibilities as part of
our audit. This evidence was corroborated to the extent we considered necessary under the
circumstances.



8
 Audit responsibilities for the OCC and the OTS are vested with the Department of the Treasury’s Office of
Inspector General.
                                                         7
With regard to reporting, the Government Auditing Standards require that auditors should report
the views of responsible officials of the audited program concerning auditors’ findings,
conclusions, and recommendations, as well as corrections planned. The standards state that one
of the most effective ways to ensure that a report is fair, complete, and objective is to obtain
those views and comments in advance. As noted previously, we considered our auditee to be the
FDIC and, within the Corporation, DOS. In the course of our audit, we met with representatives
of DOS in selected regional offices and at headquarters to discuss our findings. We incorporated
additional information and views obtained in those meetings into our draft report. The
recommendations in our draft report were addressed to DOS. Accordingly, we requested and
obtained official comments from the DOS Director. These comments are provided as an
attachment to the final report. In addition, we made reference in our final report to the
January 29, 2002, agreement between the FDIC and the other regulators that clarified the
circumstances under which the FDIC can exercise special examination authority and that
established an FDIC examiner program at the eight largest banks in the country. We added this
information as required by Section 7.44 of the Government Auditing Standards, which states that
noteworthy management accomplishments identified during the audit, which were within the
scope of the audit, should be included in the audit report along with deficiencies.

Finally, consistent with FDIC policies and procedures, we included the audit report on the
agenda for the March 15, 2002, meeting of the FDIC Audit Committee. The report was
distributed to Committee members in February, discussed at the March meeting, and
unanimously accepted by the Audit Committee for forwarding to the Board of Directors. 9 This
meeting provided representatives of the OTS and the OCC an opportunity to express concerns
with the report before it was made available to the Congress and to the public via the Public
Information Center and our OIG Web site, as is our policy. Subsequent to the Audit Committee
meeting, we transmitted the report to members of the Senate Banking and House Financial
Services Committees on March 26, 2002. We notified FDIC senior management in advance that
we would be releasing the report.

That being said, we respect the OCC’s and the OTS’s concerns with our reporting process in
circumstances where our reports deal with matters materially affecting the other PFRs. We have
indicated in meetings with the OCC and the OTS during this review, that in the future we will
inform them of FDIC OIG audits that could significantly impact their operations and, when
appropriate, allow them to review our draft reports. Accordingly, a preliminary version of this
report was provided to the OCC and the OTS to apprise them of the content and presentation of
issues.




9
  The Audit Committee minutes reflect that “Director Gilleran indicated that the subject of an audit must be given an
opportunity to review a draft of the report and submit comments. He suggested that to do otherwise is not good
procedure. He indicated that OTS did not have an opportunity to review and submit comments regarding the
report.”
                                                          8
Appendix I


Letter from the Office of the Comptroller of the
Currency and OIG Comments


                                                   Note: OIG comments
                                                   supplementing those in
                                                   the report text appear at
                                                   the end of this appendix.




                                                   See pp. 7-8 of this
                                                   report.




                           9
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See comment 1.


                                                            See comment 2.

                                                            See pp. 5-6 of this report
                                                            and comment 3.




                                                            See pp. 4-5 of this report.




                                                            See pp. 5-6 of this
                                                            report.




                                                            See comment 3.

                                                            See pp. 5-6 of this report.




                                            10
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See pp.5-6 of this report.




                                                            See comment 4.




                                            11
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                            12
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See comment 5.
                                                            See pp. 7-8 of this report.




                                                            See pp. 7-8 of this report
                                                            and comment 6.




                                            13
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See pp. 7-8 of this report
                                                            and comment 6.




                                                            See comment 4.




                                                            See pp. 4-5 of this
                                                            report.




                                            14
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See pp. 4-5 of this
                                                            report.




                                                            See comment 5.




                                                            See pp. 5-6 of this report.




                                                            See comment 5.




                                                            See comment 7.




                                                            See comment 4.




                                            15
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See comment 8.




                                            16
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See comment 8.




                                            17
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See comment 8.




                                            18
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See comment 8.




                                                            See comment 6.




                                            19
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See comment 6.




                                            20
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See comment 6.




                                            21
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See comment 6.




                                                            See report pp. 7-8.




                                            22
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See comment 4.




                                                            See comment 9.




                                            23
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See comment 9.




                                                            See pp. 5-6 of this report
                                                            and comment 5.




                                                            See comment 10.



                                                            See comment 11.




                                                            See comment 9.




                                            24
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See comments 1 and 11.




                                                            See comment 12.




                                                            See comment 13.

                                                            See comments 12 and 13.




                                            25
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




                                                            See comments 12 and 13.




                                            26
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments



The following are the FDIC OIG’s comments on the Comptroller of the Currency’s letter.




OIG Comments
 1. Although we did not present an in-depth discussion of the types of information routinely
    made available to DOS case managers, our February 2002 report does not ignore the
    channels that the OCC letter cites. We mention that information routinely received from
    the PFR includes reports related to examination activities and assessments of risk in the
    institutions and a variety of quarterly and year-end reports prepared by the banks (page 16
    of the report). Also, on page 16, we state that case managers have access to examination-
    related data that are maintained on information systems developed by the OCC. In
    addition, we mention on page 8 of the report that DOS managers believe that at the regional
    level, they have developed effective working relationships with their counterparts at the
    FRB, OCC, and OTS. However, we also point out in the report that the usefulness of the
    information typically provided to the FDIC on the nation’s largest banks is limited because
    it is historical in perspective and filtered or interpreted by the other regulators before it is
    made available to DOS.

 2. Our February 2002 report discusses the interagency agreement on pages 3, 19, and 20. The
    major provisions of the agreement are also summarized on page 3 of this report.

 3. The suggestions made in our 1999 memorandum are addressed on page 3 of our February
    2002 report. We state the nature of the suggestions and that DOS initiatives met the intent
    of our suggestions.

 4. In February 1998, the OCC received and denied DOS’s request to participate in its August
    1998 examination of Keystone. In June 1998, the OCC reversed its position but allowed
    only two DOS examiners to work in the bank. Additionally, the OCC ended the on-site
    portion of the exam after 15 work days and removed the examination team from the bank.
    An FDIC request to leave DOS examiners onsite was turned down by the OCC, leaving
    Keystone’s accountants to continue balancing accounts and valuing residuals.




                                                27
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




    The Department of the Treasury’s OIG issued a material loss report on Keystone’s failure
    in March 2000. Treasury OIG’s report states that despite finding significant problems over
    several years related to the bank’s financial accounting systems and reports, unsafe and
    unsound practices, regulatory violations, and questionable management activities, OCC
    examiners generally did not perform more extensive examination procedures that might
    have revealed the true condition of the bank. The Treasury OIG report also states that
    Keystone experienced a ten-fold growth in its subprime business line between 1992 and
    1999, without adequate accounting systems and controls, and despite regulators’ concerns
    over bank management’s lack of expertise in the area. We therefore believe that the losses
    associated with this failure may have been reduced had the bank been closed in 1998 rather
    than in 1999.

 5. Our February 2002 report presents four recent examples, two relating to OCC-supervised
    banks and two relating to OTS-supervised institutions, and references three additional
    examples from our 1999 memorandum. Regardless of the frequency with which these
    incidents occur, we believe there is a clear need to strengthen the FDIC’s authority to act in
    an independent manner in order for the Corporation to obtain unrestricted access to a bank
    and its records whenever its examiners deem it necessary to assess risk for insurance
    purposes.

 6. As part of our review of the OCC’s comments regarding this institution, we held further
    discussions with FDIC officials. We found that the FDIC’s perspective on issues and
    events relating to the joint project involving the FDIC, OCC, and FRB, and particularly
    those events that occurred during the project’s earliest phases, differs in certain respects
    from that of the OCC’s. In the interest of promoting cooperative interagency relationships,
    neither we nor FDIC officials we interviewed as part of this review believe it would serve
    any useful purpose to pursue this matter further. More importantly, both the FDIC and the
    OCC agree that their cooperative and coordinated efforts resulted in making this complex
    project a success. Regarding the examination of the national bank that is discussed on page
    9 of our February 2002 report, again the FDIC and the OCC hold differing opinions
    regarding a number of events. Concerning our report statement that as of July 2001, the
    OCC’s planned investigation of the insider transactions had not begun, we were referring to
    a return visit to the bank that the OCC had planned. According to FDIC officials, the




                                                28
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




      interagency team never did return to the bank. FDIC officials do not take issue with the
      OCC statement that in March 2001, the OCC opened formal investigations of alleged
      insider transactions that occurred in this institution.

 7. These examples are discussed in detail on pages 8 and 9 of our February 2002 report. Both
    cases illustrate situations where FDIC officials believe that they were hindered in obtaining
    sufficient information to assess insurance risk.

 8. As part of our review of the OCC’s comments regarding this institution, we held further
    discussions with FDIC officials. After revisiting the facts at our request, the FDIC agrees
    with the OCC that DOS officials were aware that this bank was rated a composite 3, as
    opposed to a composite 2, at the time it was downgraded to a composite 5. The FDIC and
    the OCC, however, present differing perspectives relating to the extent to which the OCC
    provided DOS with relevant and timely information on the worsening condition of this
    institution. In the interest of promoting cooperative interagency relationships, we do not
    believe it would serve any useful purpose to pursue this matter further. Appendix III, Table
    8, of our February 2002 report illustrates the significant impact that failed institutions with
    high loss rates had on the deposit insurance funds.

 9.    Appendix III clearly states that the loss rate percentage for the 5-year period in Table 8 is
      more than 5 times the loss rate for the 10-year period due to the costly failures that were
      incurred in 1998 and 1999. Each time period covered in Table 8 includes the years 1996
      through 2000 and therefore takes into account Keystone’s failure. No attempt was made to
      exaggerate the effects of Keystone’s loss. In fact, Table 8 does not include the loss estimate
      associated with the closing of Superior, $440 million as of June 30, 2002, because that
      failure occurred in July 2001. Additionally, within 1 year following Superior’s failure, four
      other banks failed that have substantial loss rates (based on loss estimates as of June 30,
      2002): Hamilton Bank, NA was closed on January 11, 2002 and has an estimated loss range
      of between $175 million and $225 million (loss rate range – between 14 percent and 18
      percent); Oakwood Deposit Bank Company was closed on February 1, 2002 and has an
      estimated loss of $73.5 million (119 percent); NextBank, NA was closed on February 7,
      2002 and has an estimated loss range of between $300 million and $400 million (loss rate
      range – between 45 percent and 60 percent); and Connecticut Bank of Commerce was
      closed on June 26, 2002 and has an estimated loss range between $46 million and




                                                 29
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




    $146 million (loss rate range – between 12 percent and 37 percent). Due to the anticipated
    losses associated with these and other failures, and because of a change during the first
    quarter of 2002 relating to how banks calculate insured deposits, it is not clear as of the date
    of this report whether bank insurance fund payouts will cause the fund’s reserve ratio to fall
    below the 1.25 percent statutory minimum. Should the reserve ratio fall below 1.25 percent
    and if the insurance fund is not recapitalized soon thereafter, all banks could face paying
    insurance premiums. Thus, as stated in our February 2002 report, there is a compelling
    need for all regulators to cooperate fully with each other in order to minimize the losses
    associated with any future failures.

 10. Page 16 of our February 2002 report states that attending meetings provides the FDIC with
     the most effective and real-time means by which to evaluate insurance risks and is more
     effective than reading meeting summaries several weeks or months after meetings occur.
     The report does not state that attending meetings with bank management is the only source
     of current information.

 11. Our February 2002 report presents numerous sources of information that FDIC case
     managers use to monitor bank activities and the corresponding risks that they present.
     These information sources are discussed on pages 15 and 16 of the report. Page 14 of the
     report also states that a fundamental component of DOS’s approach to megabank
     monitoring is the personal relationships that case managers develop with their counterparts
     in the other regulatory agencies.

 12. As stated in our February 2002 report, because of the unique characteristics of the nation’s
     largest banks, there is probably no single strategy that will meet all of the FDIC’s
     information needs for each of the megabanks it monitors, and the Corporation’s
     effectiveness in monitoring large banks supervised by the other PFRs will continue to
     evolve over time along a variety of approaches. We believe that the interagency agreement
     authorized by the FDIC Board in January 2002, which includes a provision for FDIC
     personnel to be on site at selected megabanks with the other PFRs, will prove beneficial to
     the Corporation in carrying out its responsibilities. Over time, other initiatives and
     agreements will likely be developed between the regulators as they strive to address
     constantly changing conditions in the nation’s economy, financial markets, and the banking
     industry. Given the overriding goals of safeguarding the deposit insurance funds and




                                                30
Appendix I
Letter from the Office of the Comptroller of the Currency
and OIG Comments




    ensuring the safety and soundness of financial institutions, the regulators will need to
    continue to work toward maximizing the extent to which they can share information and
    foster a spirit of cooperation in responding to and anticipating changing conditions and
    developing risks.

 13. Our February 2002 report is a follow-up audit of a 1999 OIG study of the FDIC’s use of
     special examination authority. The results of our prior study were provided to the FDIC
     Chairman in an audit memorandum dated October 19, 1999. The memorandum contained
     suggestions for the Chairman’s consideration. The 1999 memorandum did not contain
     recommendations and did not require a written response.




                                              31
Appendix II



Letter from the Office of Thrift Supervision
and OIG Comments


                                               Note: OIG comments
                                               supplementing those in
                                               the report text appear at
                                               the end of this appendix.




                                               See pp. 7-8 of this report.




                          32
Appendix II
Letter from the Office of Thrift Supervision
and OIG Comments




                                                    See pp. 7-8 of this report.




                                                    See pp. 5-6 of this report.




                                                    See comment 1.




                                                    See pp. 7-8 of this
                                                    report.




                                                    See comment 2.




                                               33
Appendix II
Letter from the Office of Thrift Supervision
and OIG Comments




                                                    See pp. 5-6 of this report.




                                                    See comment 3.




                                               34
Appendix II
Letter from the Office of Thrift Supervision
and OIG Comments




                                                    See comment 4.




                                                    See comment 5.




                                                    See comment 6.




                                                    See comment 7.




                                               35
Appendix II
Letter from the Office of Thrift Supervision
and OIG Comments




                                                    See comment 7.




                                                    See comment 8.




                                                    See comment 9.




                                                    See pp. 7-8 of this report.




                                                    See pp. 5-6 of this report.




                                                    See comment 10.




                                               36
Appendix II
Letter from the Office of Thrift Supervision
and OIG Comments




                                                    See comment 10.




                                               37
Appendix II
Letter from the Office of Thrift Supervision
and OIG Comments



The following are the FDIC OIG’s comments on the Office of Thrift Supervision’s letter.




OIG Comments

 1. Our February 2002 report does not conclude or state that restrictions placed on the FDIC by
    the OCC or the OTS caused or contributed to the failure of Keystone or Superior. The
    report conveys our opinion that due to the nature of the activities that Keystone and
    Superior were engaged in until they failed, insurance fund losses may have been reduced
    had these institutions been closed in a more timely manner.

     The Treasury OIG issued a material loss review report on Superior’s failure in February
     2002. (Material Loss Review of Superior Bank, FSB, Report Number OIG–02–040,
     February 6, 2002). The Treasury OIG’s report states that the high concentration levels of
     residual assets magnified the adverse effects of the accounting and valuation adjustments
     leading to Superior’s insolvency. As early as 1993, OTS examiners had reflected some
     concerns about the risks associated with residual assets, $18 million at that time, or about
     33 percent of tangible capital. OTS did little to either curb the rapid growth or
     concentrations that reached $977 million, over 345 percent of capital, as reflected in the
     2000 examination. The Treasury OIG report also states that besides the rapid growth, there
     were other indicators that should have alerted examiners that Superior’s activity was high
     risk: the level of Superior’s residual assets clearly surpassed all other OTS-supervised
     thrifts, the underlying subprime loans supporting the residual assets were high risk, and
     Superior improperly reported residual assets in thrift financial reports beginning as early as
     1993. OTS continually recommended but did not require Superior to reduce its residual
     asset growth and levels until July 2000. The Treasury OIG report states that Superior’s
     mounting concentrations, the presence of several other high-risk indicators, and Superior
     management’s unfilled prior commitments strongly suggest that earlier enforcement action
     was warranted. We therefore believe that closing the institution earlier would have reduced
     the anticipated losses resulting from this institution’s failure. The basis of our opinion
     relating to losses associated with the failure of Keystone is discussed in OIG comment
     number 4 on pages 27 and 28 of this report.



                                                38
Appendix II
Letter from the Office of Thrift Supervision
and OIG Comments




 2. Our February 2002 report states on page 11 that after denying the FDIC’s request to
    participate in the OTS’s 1999 examination of Superior, the OTS allowed DOS officials to
    meet off-site with OTS examiners about a week prior to the close of the exam. Our report
    further states that DOS found that this arrangement resulted in a limited benefit and that
    over the succeeding months as the bank’s situation deteriorated, DOS continued to
    encounter difficulties in obtaining the OTS’s full cooperation.

 3. In conducting follow-up work related to this OTS statement, FDIC officials informed us
    that the two banks discussed in our February 2002 report were, and are presently, assigned
    to different case managers.

 4. In conducting follow-up work related to this OTS statement, FDIC officials informed us
    that a comprehensive memorandum prepared by the FDIC Regional Capital Markets
    Specialist and representing the findings of both agencies was finalized and provided to the
    FDIC Examiner-in-Charge (EIC) and the OTS EIC on the same day. The written findings,
    which pertained to issues that had been discussed with bank management throughout the
    examination process, were presented to bank management 2 days later, which was 7 days
    prior to the exit meeting. Because the bank’s response did not satisfactorily address many
    of the regulators’ concerns, the FDIC prepared and provided the OTS with a second
    memorandum to be used in following up with the bank.

 5. In conducting follow-up work related to this OTS statement, FDIC officials informed us
    that although the OTS approved a 2-week extension, there was insufficient time to
    (1) complete the exam in a number of important areas that included the construction loan
    portfolio, the adequacy of the bank’s allowance for loan and lease losses, the adequacy of
    recourse reserves established to absorb losses associated with repurchased loans and
    (2) evaluate and respond to bank management’s response regarding manufactured housing
    securitizations. As a result, DOS pursued a second extension of time that the OTS denied.

 6. In conducting follow-up work related to this OTS statement, FDIC officials informed us
    that the FDIC and the OTS EICs discussed the CAMELS component and composite ratings
    in advance of the examination exit meeting with bank management, and that during the last
    week of the examination, it was clear that the two regulators had differences in opinion
    regarding several component ratings and the composite rating.




                                               39
Appendix I I
Letter from the Office of Thrift Supervision
and OIG Comments




 7. In conducting follow-up work related to this OTS statement, FDIC officials informed us
    that they agreed that the “allocated reserve” should not be included in capital but did not
    necessarily agree with the OTS on the appropriate manner to remove the “reserves” from
    capital.

 8. In conducting follow-up work related to this OTS statement, FDIC officials informed us
    that the FDIC EIC believed that because the bank had used an inappropriate accounting
    treatment, the bank’s well-capitalized status was in question and that until the issues
    impacting capital could be resolved, holding the exit meeting with bank management would
    be premature.

 9. In our February 2002 report, our statement that the OTS ultimately agreed with DOS that
    the bank’s composite rating should be lowered from a 3 to a 4 referred only to a difference
    in opinion concerning the results of the July 2000 examination, not the composite rating of
    the previous examination. In conducting follow-up work related to this OTS statement,
    FDIC officials informed us that although the FDIC EIC did not concur with several of the
    CAMELS component ratings, this was not considered a significant issue once agreement
    was achieved on the composite rating.

 10. After completing our fieldwork with the OTS and the FDIC, we sought OTS’s input on
     several issues raised during our review in a letter dated November 26, 2001. We
     incorporated the OTS’s response, received in December 2001, throughout our report. We
     provided DOS with a preliminary and incomplete draft of the report in mid-January 2002.
     We provided the OTS with copies of the complete draft report on January 29, 2002, the
     same day that we provided the complete report to DOS. Because of time constraints
     imposed by the Senate Committee on Banking, Housing, and Urban Affairs, the draft report
     was provided for informational purposes only. Additionally, the report was submitted to,
     reviewed, and accepted by the FDIC’s Audit Committee, of which the Director of OTS is a
     member.




                                               40
